<html>
<title> - IMPROVING SECURITY AND FACILITATING COMMERCE AT THE SOUTHERN BORDER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE SOUTHERN BORDER
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 31, 2002

                               __________

                           Serial No. 107-138

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform









                           U.S. GOVERNMENT PRINTING OFFICE
82-954                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
             Nicholas P. Coleman, Professional Staff Member
                          Conn Carroll, Clerk
         Julian A. Haywood, Minority Professional Staff Member







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 31, 2002.................................     1
Statement of:
    Fasano, Adele J., District Director of INS, San Diego 
      District Office; Rex Applegate, Assistant Director of 
      Mission Support and Field Operations, southern California 
      Customs Management Center; and William T. Veal, Chief 
      Patrol Agent, U.S. Border Patrol, San Diego Sector.........     8
    Jacob, Dianne, San Diego County Supervisor; Roger Hedgecock, 
      former mayor of San Diego and Radio Commentator for KOGO 
      Radio; Donna Tisdale, chairman, Boulevard Sponsor Group; 
      and Murial Watson, founder, Light up the Border Patrol 
      Council....................................................    39
    Montano, Teresa, human resources manager, Southwest Marine, 
      United States and North San Diego Division, on behalf of 
      U.S. Marine Repair West; Berta Alicia Gonzalez, vice 
      president, San Ysidro Chamber of Commerce; Viviana Ibanez, 
      international affairs coordinator, San Diego Chamber of 
      Commerce; and Steve Otto, executive director, San Ysidro 
      Business Association.......................................    71
Letters, statements, etc., submitted for the record by:
    Applegate, Rex, Assistant Director of Mission Support and 
      Field Operations, southern California Customs Management 
      Center, prepared statement of..............................    12
    Hedgecock, Roger, former mayor of San Diego and Radio 
      Commentator for KOGO Radio, prepared statement of..........    44
    Ibanez, Viviana, international affairs coordinator, San Diego 
      Chamber of Commerce, prepared statement of.................    77
    Montano, Teresa, human resources manager, Southwest Marine, 
      United States and North San Diego Division, on behalf of 
      U.S. Marine Repair West, prepared statement of.............    73
    Otto, Steve, executive director, San Ysidro Business 
      Association, prepared statement of.........................    81
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Tisdale, Donna, chairman, Boulevard Sponsor Group, prepared 
      statement of...............................................    49
    Veal, William T., Chief Patrol Agent, U.S. Border Patrol, San 
      Diego Sector, prepared statement of........................    20
    Watson, Murial, founder, Light up the Border Patrol Council, 
      prepared statement of......................................    54








  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE SOUTHERN BORDER

                              ----------                              


                       THURSDAY, JANUARY 31, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     San Diego, CA.
    The subcommittee met, pursuant to notice, at 9:15 a.m., in 
Central Public Library Auditorium, 820 E Street, San Diego, CA, 
Hon. Mark E. Souder (chairman of the subcommittee) presiding.
    Present: Representative Souder.
    Also present: Representative Filner.
    Staff present: Christopher Donesa, staff director and chief 
counsel; Nick Coleman, counsel; Conn Carroll, clerk; and Jim 
Rendon, U.S. Coast Guard.
    Mr. Souder. The subcommittee will come to order. Good 
morning and thank you for all coming. We wanted to make sure 
that we held this hearing on the coldest night of the year in 
San Diego. But it sure has been beautiful weather. We came in 
yesterday and appreciate being here.
    Today our subcommittee will explore the status of the 
border across the San Diego region. Even before the terrorist 
attack of September 11, 2001, the subcommittee was considering 
ways to improve both security of our Nation's borders and the 
efficient flow of international commerce, travel and tourism.
    Continuing problems with illegal immigration and the 
smuggling of drugs and other contraband over the Southern and 
Northern borders and the threat of terrorism prompt the call to 
hire more Federal law enforcement officers and to expand the 
physical and technological infrastructure needed to allow those 
officers to work effectively.
    The attacks of September 11th and the heightened scrutiny 
over the last 4 months have emphasized the urgency of dealing 
with the terrorist threat as well as the problems of narcotics 
interdiction and illegal immigration. At the same time, long 
delays at some border crossings and a reduction in commercial 
and commuter traffic from the increased security measures put 
in place after September 11th have raised concerns about the 
effect of these policies on trade, tourism and travel.
    Congress has been considering numerous proposals to deal 
with these problems, and just last week President Bush outlined 
his plan to significantly increase the personnel and resources 
at the borders and ports of entry. By the way, I think 55 
percent of the homeland security budget is related to the 
border.
    Our subcommittee is supportive of these efforts, and we are 
open to exploring all of the various proposals. However, 
finding and implementing solutions is much more difficult than 
simply identifying problems. For example, the House of 
Representatives and the Senate, last year passed anti-terrorist 
legislation that, among other measures, authorizes the tripling 
of the number of Border Patrol agents, INS inspectors and 
Customs inspectors along the Northern border.
    It is unclear, however, how quickly any of these agencies 
can meet these requirements. Moreover, it is unclear what the 
impact of the new emphasis on anti-terrorism will be on 
personnel decisions at each of these agencies. In the rush to 
protect our Nation's borders form terrorists, we must not 
hamper our ability to protect the citizens from other dangers.
    This hearing is part of a series of field hearings which 
this subcommittee is holding at border crossing and ports of 
entry throughout the United States. We have already held three 
hearings on the Northern border. This is our first hearing on 
the Southern border. At each location, the subcommittee is 
assessing the problems facing the Federal agencies, local 
lawmakers and community and business leaders with respect to 
border policy.
    We will focus on what new resources are needed for the 
Federal Government most effectively to administer the border 
crossing, as well as what new policies could be pursued to ease 
the burden that is being placed on commerce, travel and 
tourism. We will also explore how the new emphasis on 
preventing terrorism may affect the ability of these agencies 
to carry out their other vital missions.
    These issues are all very important and extremely urgent. I 
look forward to hearing from our witnesses today about ways to 
address them. We have invited representatives of agencies 
primarily responsible for protecting our borders in this 
region; namely, the U.S. Customs Service, the Immigration and 
Naturalization Service and the U.S. Border Patrol to testify 
here today. The subcommittee is vitally interested in ensuring 
the effective functioning of these agencies, and we will 
continue to work with them and their employees to ensure the 
continued security and effective administration of our Nation's 
borders.
    We welcome Mr. Rex Applegate, Assistant Director of Mission 
Support and Field Operations of the southern California Customs 
Management Center; Ms. Adele J. Fasano, District Director of 
INS San Diego District Office; and Mr. William T. Veal, Chief 
Patrol Agent of the U.S. Border Patrol, San Diego Sector.
    When examining border policies, we must of course also seek 
the input of representatives of each local community whose 
livelihood is directly affected by the changes at the border. 
We therefore welcome Ms. Dianne Jacob, the San Diego County 
Supervisor; Mr. Monty Dickenson, president of the U.S. Marine 
Repair West; Mr. Roger Hedgecock, former Mayor of San Diego and 
currently a radio commentator for KOGO Radio; Ms. Viviana 
Ibanez, International Affairs Coordinator at the San Diego 
Chamber of Commerce; Ms. Donna Tisdale, Chairman of the 
Boulevard Sponsor Group; and Ms. Murial Watson, Founder of 
Light Up the Border and former Public Information Officer of 
the Border Patrol Council.
    We also attempted--this was put together relatively at the 
last minute--to talk to some of our Mexican counterparts and 
their Parliament, as we have been doing in the Canadian 
Parliament. And one of the goals of this committee, as we 
review our border crossings, is to make sure that we also work 
with the groups across the border, and we have done so in the 
Northern border hearings. We will continue to do that as we 
move through Arizona and Texas for South border hearings as 
well.
    We thank everyone for taking the time this morning, it is 
afternoon in Washington time, to be with us. With that, I would 
also ask unanimous consent to insert into the record a 
statement from Congresswoman Susan Davis who cannot be with us 
this morning. Hearing no dissent, I will order that.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.001
    
    [GRAPHIC] [TIFF OMITTED] 82954.002
    
    [GRAPHIC] [TIFF OMITTED] 82954.003
    
    Mr. Souder. And I would now like to recognize my colleague 
in Congress, former next door neighbor in the Cannon Office 
Building, Filner, for an opening statement.
    Mr. Filner. Thank you, Mr. Chairman, and thank you for 
coming to San Diego. I thought you might change your mind when 
for the first time in history Washington had a warmer winter 
day than we had in San Diego. But thank you for being here, and 
we do appreciate also your deciding to have your hearing right 
here so more people can see the need for a new downtown 
library. And we all thank you for those efforts.
    And thank you also for the courtesy of me being here. I am 
not a member of the committee, and it is only through the 
chairman's courtesy that I can be here and be a part of the 
hearing.
    I appreciate in your opening statement, Mr. Chairman, that 
you said that we have to do two things. We have to have the 
security that America demands in the wake of September 11th, 
but we also have to have an efficient flow for business and 
tourism and the things that keep our binational community 
going.
    In my district in the south county, for example, we have 
suffered tremendously economically as a result of the new 
security measures, with not concomitant resources to match 
them. Something like $3 or $4 billion a year is spent in San 
Diego County from shoppers in Mexico. Much of our border 
economy is dependent on that cross border through family and 
education. Cultural relationships depend on an efficient flow. 
So I appreciate your focus on how to get the resources here to 
do both, and I am glad that that is the focus of this hearing.
    If I may restate a popular Mexican saying, we in San Diego 
feel that we are so close to God but so far away from 
Washington, DC. That is, we feel nobody understands our 
problems here and to get us the resources we need. So we are 
very grateful in your coming to San Diego. Thank you, Mr. 
Chairman.
    Mr. Souder. Thank you very much. Congressman Duncan Hunter 
as well as Congressman Issa both expressed their regrets they 
couldn't be here. We have a Republican retreat that I chose to 
come and do border issues, and tomorrow will be in Los Angeles 
Port, but they had already made a commitment not knowing that I 
was going to do this hearing. And I appreciate Gary Meeks' help 
here. I have been twice over the last few years down to San 
Ysidro and other ports of entry here, but I have not held a 
hearing and wanted to make sure that we got this into the 
record.
    Before proceeding I would like to take care of a couple of 
procedural matters.
    Mr. Filner. I am so glad that the Republicans have decided 
to retreat.
    Mr. Souder. That is what the Democrats call it, too. I 
should have chosen my words more carefully.
    Before proceeding I would like to take care of a couple of 
procedural matters: first, that all members have 5 legislative 
days to submit written statements and questions for the record; 
that any answers to written questions provided by the witness 
will also be included in record. Without objection, so ordered.
    Second to that, all exhibits, documents and other materials 
referred to by members and the witnesses may be included in the 
hearing record; that all members be permitted to revise and 
extend their comments. Without objection, so ordered.
    Finally I ask unanimous consent that members present be 
able to participate in the hearing. It is a longstanding policy 
of congressional committees that government witnesses 
representing the administration testify first.
    So our first panel consists of those witnesses. We are a 
Government Reform and Oversight Committee, and we always swear 
our witnesses in because of the oversight function.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
answered in the affirmative. You will each now be recognized 
for opening statements. We will ask that you summarize your 
testimony in 5 minutes, particularly since we have so may 
witnesses today. You can insert your full statements in the 
record as well as any other documentation that you would like 
to give.
    It is my privilege to first recognize Ms. Fasano. You are 
recognized for your opening statement on behalf of the 
Immigration and Naturalization Service.

 STATEMENTS OF ADELE J. FASANO, DISTRICT DIRECTOR OF INS, SAN 
  DIEGO DISTRICT OFFICE; REX APPLEGATE, ASSISTANT DIRECTOR OF 
   MISSION SUPPORT AND FIELD OPERATIONS, SOUTHERN CALIFORNIA 
 CUSTOMS MANAGEMENT CENTER; AND WILLIAM T. VEAL, CHIEF PATROL 
          AGENT, U.S. BORDER PATROL, SAN DIEGO SECTOR

    Ms. Fasano. Good morning. Thank you, Chairman Souder and 
Congressman Filner, for your invitation to appear before you 
today on behalf of the U.S. Immigration and Naturalization 
Service. I will focus on the work of the San Diego INS 
District, with emphasis on security at our six land border 
crossings here on the California-Mexico border, especially our 
post-September 11th environment.
    The San Diego District's largest program is inspections, 
where one-half of the district's 1,200 staff work on the front 
line of the border checking immigration documents and 
citizenship of pedestrians and motorists. In fiscal year 2001 
we conducted a record 99 million inspections at our six ports.
    As Operation Gatekeeper has established tighter control 
over illegal immigration in the areas between the ports, 
smugglers have begun to target the ports of entry. The major 
types of violators we encounter are document fraud and 
concealment in vehicles. We are working hard to respond to an 
alarming increase in a particularly dangerous activity that 
involves specially outfitted compartments such as hollowed out 
gas tanks, engines, dashboards, trunks and floorboards. We even 
found a man sewn into a seat.
    Last year we arrested 56,000 violators, of which 12,000 
were found concealed in vehicles. To deter illegal immigration 
at this major smuggling corridor, we use a multi-pronged port 
enforcement strategy. Our top priority is the criminal 
prosecution of the most egregious cases, such as convicted 
felons who attempt reentry to the United States after 
deportation and ruthless smugglers who profit from the 
desperation of migrants. We completed 900 prosecutions last 
year.
    Second, we initiate civil court proceedings to remove 
repeat offenders, and the majority of our enforcement resources 
are used to administratively remove these individuals.
    I would now like to turn to the San Ysidro Port of Entry, 
the busiest port of entry in the world, which has 24 vehicle 
primary lanes, and 8 pedestrian booths. In fiscal year 2001 
some 50 million inspections were completed at that location. We 
have several innovative initiatives to deter illegal 
immigration and expedite the processing of legitimate crossers. 
I will summarize two enforcement initiatives.
    Under Operation Triple Play, INS special agents and Border 
Patrol agents generate leads for further investigation of 
smuggling organizations linked to fraudulent document rings. As 
a result of this operation, document fraud in our pedestrian 
lanes has decreased by 25 percent.
    We have also initiated an innovative binational joint 
prosecution initiative with the Mexican government where 
certain smugglers who we apprehend at the border are prosecuted 
in the Mexican judicial system. The lives of thousands of 
border crossers who live and work on both sides of the border 
are affected by our port operations. To this end, the Century 
Automated Inspection Program now operates at both the San 
Ysidro and Otay Mesa ports of entry.
    The system is very popular with our community. Since 
September 11th applications have increased by more than 100 
percent, and we have currently 12,000 border crossers enrolled 
in the program.
    In response to the September 11th terrorist attacks, all of 
our ports were placed on a Level one security alert. Security 
operations include special roving teams that search inside 
vehicles, the use of magnetometers and x-ray machines in 
pedestrian walkways, after-hours officer presence at our less 
than 24-hour ports, photo identification requirement of all 
border crossers and extensive computer inquiries using our 
interagency border inspection system.
    We also continue to assign two of our INS special agents to 
the Joint Terrorism Task Force. They provide a vital link to 
sharing intelligence and interview individuals with national 
security interests.
    There have been three significant effects of heightened 
border security. One, though unfortunate, is the lengthening of 
border crossing wait times. The reason wait times have 
increased is that inspection procedures have been intensified.
    Second, longer border waits tend to result in a lower 
number of crossings, especially in the pedestrian area.
    Third is the beneficial effect that heightened border 
security has had on deterring illegal immigration. Prior to 
September 11th, the average weekly apprehensions at San Ysidro 
were 1,000. Today the average is 350. This is a 75 percent 
reduction.
    The average wait is now 45 minutes in our vehicle lanes, 
which is a significant reduction from 2 hours and more that we 
faced during the initial weeks following the attacks. 
Pedestrian delays are longer. They have increased from an 
average wait of 15 minutes before September 11th to about 45 
minutes presently.
    Gradually vehicle crossings are returning to the pre-
September 11th levels. They now number about 40,000 compared to 
a previous average of 43,000. Pedestrian numbers remain at a 50 
percent reduced level.
    Heightened security at our land border crossings has 
provided a strong defense against terrorists seeking entry into 
the United States. We have done an outstanding job maintaining 
the highest level of security possible at the busiest 
international border crossing in the world. In doing so, we 
have achieved a reduction in illegal immigration. Our top 
priorities remain heightened border security, effective 
enforcement to deter illegal immigration and efficient 
processing of legitimate travelers.
    Mr. Souder. Thank you very much.
    Mr. Applegate.
    Mr. Applegate. Chairman Souder, Congressman Filner, thank 
you for your invitation to testify and for providing me the 
chance to appear before you today. I would like to discuss the 
efforts of the U.S. Customs Service to address the terrorism 
threat and the challenges that exist along the U.S.-Mexican 
border in the southern California Customs Management Center, 
also known as the CMC.
    In the southern California CMC, the majority of our 
resources are focused on processing traffic through the ports 
of entry along the California-Mexico border of Imperial and San 
Diego Counties. In fiscal year 2001, this traffic included over 
31 million private vehicles, 23 million pedestrians and 1.2 
million commercial trucks.
    From this traffic our officers seized a record 244 tons of 
narcotics, an increase of almost 19 percent by weight over 
fiscal year 2000. The amounts seized accounted for over 36 
percent of narcotics confiscated on the southwest border, and 
almost 29 percent of all drugs seized by Customs nationwide.
    In addition, $168 million in Customs duties was collected 
in the processing of 525,000 commercial importations with a 
total value of $22 billion.
    This performance resulted from the skillful operation of a 
multi-layered strategy of risk management and targeting to sort 
out suspicious persons and goods from legitimate travel and 
trade. The layers of this strategy include vigorous automated 
and manual prescreening systems, the dedicated efforts of 
Customs officers, National Guardsmen, and canines and 
utilization of a wide array of state-of-the-art detection 
technology.
    Another major component of this strategy has been 
partnerships with other involved governmental and private 
interests on both sides of the border. These include the Border 
Cooperative Initiative with the U.S. Immigration and 
Naturalization Service, industry partnership programs with 
commercial importers, and ongoing coordination with trade 
groups, community Chambers of Commerce and governmental 
organizations.
    Immediately following the terrorist attacks of September 
11th, Customs went to a Level one alert. Level one requires 
sustained intensive anti-terrorist initiatives and includes 
increased inspections of travelers and goods at every port of 
entry. We remain at Level one alert today. The activities under 
Level one do not constitute new or unfamiliar work for Customs, 
but rather an intensification of what we already do, with a 
pivot from anti-smuggling to anti-terrorism. This change in 
focus is supported on the southwest border by a greater 
utilization of existing resource. In other words, we are 
working longer and harder. Several related issues bear 
discussion.
    First, state the obvious. Failing to catch a terrorist 
crossing the border can have serious consequences. We have to 
be tighter, we have to do better. The Level one alert brings us 
closer, but we have more to do.
    Second, in the southern California CMC, our officers are 
working 17 percent more overtime on top of what was already a 
heavy overtime burden.
    Finally, we have existing strategies in place that are 
being adapted and redirected to the higher risk of the 
terrorist threat. I will discuss one of those in a minute. 
Since September 11th, the southern California CMC has received 
24 additional Customs officer positions, a 3.8 percent 
increase, that is just now beginning to relieve some of the 
overtime pressures on our work force.
    Recent passage of emergency supplemental appropriations for 
counterterrorism have provided additional resources which 
project out to 20 to 30 additional positions for the CMC. We 
are hopeful that this will allow us to reach a point where the 
current level of operations can be sustained indefinitely.
    Operationally, we currently employ a wide variety of means 
to sift out threats from the vast flows of legitimate travel 
and trade, but in the wake of September 11th it is obvious that 
we must do more. In trade processing, we must do more to push 
our hemisphere of activities outward from U.S. points of entry 
to foreign points of origin. The recently implemented Customs-
Trade Partnership Against Terrorism does just that. In this 
program we are working with importers in developing information 
such as where the goods originated, physical security and 
integrity of their foreign plants and suppliers, the background 
of their personnel, the means by which they transport goods, 
and those who they have chosen to transport their goods into 
our country.
    At the same time Customs will provide incentives to 
companies who partner with us to improve our national security 
against terrorist threats. Those companies that adopt or have 
programs that meet these security standards will be given the 
fast lane through border crossings.
    The Customs-Trade Partnership Against Terrorism is one of a 
varied and growing inventory of approaches Customs has adopted 
to tighten security of our borders. All of these efforts are 
driven by the reality that knowledge is a force multiplier, 
that the more we know about the people and companies who travel 
and import, the better we will be able to identify and 
interdict threats to our national security.
    I want to thank you, Mr. Chairman, Congressman Filner, for 
this opportunity to testify. U.S. Customs Service will continue 
to make every effort possible, working with our fellow 
inspection agencies, with the administration, with 
congressional leaders, our Mexican counterparts and the 
business community, to address your concerns and those of the 
American people.
    I would be happy to answer any questions you may have.
    [The prepared statement of Mr. Applegate follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.004
    
    [GRAPHIC] [TIFF OMITTED] 82954.005
    
    [GRAPHIC] [TIFF OMITTED] 82954.006
    
    [GRAPHIC] [TIFF OMITTED] 82954.007
    
    [GRAPHIC] [TIFF OMITTED] 82954.008
    
    [GRAPHIC] [TIFF OMITTED] 82954.009
    
    [GRAPHIC] [TIFF OMITTED] 82954.010
    
    Mr. Souder. Thank you very much. Good to see you again.
    Mr. Veal. The last time we had a great lunch at McDonald's. 
You may begin.
    Mr. Veal. Mr. Chairman, Representative Filner, thank you 
for the opportunity to be here. Mr. Chairman, as you said, I 
have had the opportunity to take both you and Representative 
Filner down to the border. You personally have seen what we 
have achieved here.
    Prior to 1995, San Diego was the absolute worst place on 
the border. For the 30 years prior to 1995, every year San 
Diego, 66 miles of our almost 2,000-mile border with Mexico, 
accounted for 50 percent of all of the arrests made along that 
whole border. Clearly this area was completely out of control.
    In fiscal 1995, with the strong support of the Congress, we 
embarked on a course to change that. We commenced Operation 
Gatekeeper. Operation Gatekeeper was the systematic application 
of technology and resources to control our border. Today San 
Diego is the success story on our border. It is the template 
for what we want to achieve across the entire Southern border 
and also replicate on the Northern border.
    Mr. Chairman, you remarked that the President has expressed 
an intent to significantly expand the Border Patrol. I would 
caution that we do that in a manner whereby that growth is 
controlled. We can't--the annals of law enforcement are ripe 
with tales of police agencies that tried to grow too quickly. 
When you do that, you run the risk of diluting the culture of 
the organization and not bringing new members in who understand 
exactly what it is that is expected of them.
    And the ratio of new people to seasoned officers is a 
factor. It is something that we need to be mindful of. I would 
also suggest something that we need to redress, certainly at 
the national level, is that unique to San Diego also is the 
fact that we suffer significant officer attrition here. It is 
primarily due to the fact that the Federal law enforcement pay 
scale has not kept up with, for example, the California law 
enforcement pay scale, so that officers at the State and local 
level here enjoy significantly higher benefits than their 
Federal counterparts. And this has facilitated a migration of 
Federal law enforcement officers to State and local agencies, 
and I would urge that at some point the Congress redress this, 
as it clearly is costly for us. Last year we suffered 282 
officer attritions. It is a significant training cost for us, 
and we would sure like to keep those folks within our ranks.
    Again, I would welcome any questions that I could possibly 
answer for you.
    [The prepared statement of Mr. Veal follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.011
    
    [GRAPHIC] [TIFF OMITTED] 82954.012
    
    [GRAPHIC] [TIFF OMITTED] 82954.013
    
    [GRAPHIC] [TIFF OMITTED] 82954.014
    
    [GRAPHIC] [TIFF OMITTED] 82954.015
    
    [GRAPHIC] [TIFF OMITTED] 82954.016
    
    [GRAPHIC] [TIFF OMITTED] 82954.017
    
    [GRAPHIC] [TIFF OMITTED] 82954.018
    
    [GRAPHIC] [TIFF OMITTED] 82954.019
    
    [GRAPHIC] [TIFF OMITTED] 82954.020
    
    [GRAPHIC] [TIFF OMITTED] 82954.021
    
    Mr. Souder. Well, thank you all very much for your 
statements. Let me start with a few questions. I will be ready 
for Mr. Filner, who will probably have a few.
    And let me start with your last point first, Mr. Veal. And 
I apologize in your statement if it is written, but probably 
good to state it verbally. To get 282 agents, how many people 
do you usually have to interview?
    Mr. Veal. For us to get one seat filled at the Border 
Patrol Academy, we have got to start by testing 50 people.
    Mr. Souder. So it is a multiplier of 50?
    Mr. Veal. Yes.
    Mr. Souder. In the 282, did most of those go to other law 
enforcement agencies? Do you know?
    Mr. Veal. Yes, sir, they did.
    Mr. Souder. One of the problems that--we have run into 
this. Let me ask you another question. Since the Airline 
Security bill has become implemented, have you had any people 
move there? Are they moving to the Air Marshals? Have you seen 
extra acceleration of this trend?
    Mr. Veal. Sir, there are 2,200 officers assigned to the San 
Diego Sector. In the last 2 months we had 25 of those officers 
transfer to the Air Marshal Program.
    Mr. Souder. One of the things that really prompted a lot of 
response in Congress was when Mr. Ziglar told us when we were 
in the process of addressing that information, we were losing 
and you have to address those pay questions. Let me ask another 
question related to this.
    Do you have in your written testimony the differentiation 
in California, or could you roughly give that--what your agents 
make compared to California law enforcement?
    Mr. Veal. Probably the most significant differences is 
police and firefighters for the most part in California have 
gone to a 3 percent a year retirement equity, meaning that 
after 20 years of service they would have accrued 60 percent 
retirement equity. The national law enforcement standard is 
2\1/2\ percent. So after 20 years the officer would be at a 50 
percent rate. The California State officer would be at the 60 
percent rate.
    Mr. Souder. Are there regional pay variables in the Border 
Patrol for cost of living?
    Mr. Veal. Yes, sir. I believe it was in 1993 that the 
Congress did visit the question. However, it is inadequate to 
the task. It has not been revisited since then.
    Mr. Souder. Does that adjustment take into account other 
law enforcement, or is it just merely cost of living across the 
board?
    Mr. Veal. No, sir. I believe it was a cost of living study 
that was done by the National Commission in 1993.
    Mr. Souder. Cost of living not compared to what the people 
would compete, but the general cost of living?
    Mr. Veal. Yes, sir.
    Mr. Souder. On the Civil Service Subcommittee how to 
address this, it becomes fairly complicated in other areas of 
the government. And we tried to address it in the 
appropriations bill, but we couldn't get an agreement worked 
out because some of the health fields and other things, and 
Civil Service didn't want to single out just one. But we are 
trying, if you can assure your agents. Congress, for the first 
time we are focused on this question in trying to figure out 
how to move something this year that will help address some of 
those, because it doesn't do any good for us to--if you can't 
get the personnel and we rob Peter to pay Paul, we are losing 
experience in the one area in order to get people in another 
area where we have to train them. So we are doubling our 
training costs as well as our payroll costs.
    I have a question, Ms. Fasano. You gave the history that 
you are down 43 to 40, but you are almost back up on the car 
traffic. You said the wait times had gone from 2 hours post-
September 11th down to 45 minutes now. What was the historic, 
do you know?
    Ms. Fasano. Historically before September 11th--well, back 
to 1995, when there was the massive increases in budget 
increases for INS with Gatekeeper, the district also doubled in 
size, particularly our inspectors at the border, and the wait 
times back then were an hour to an hour and a half. We were 
able to get them down to about 20 to 30 minutes for a couple of 
years. Then some of the border crossing trends changed. We have 
peaking problems. People are crossing within shorter time 
windows. They did start to rise somewhat before September 11th.
    Mr. Souder. They were closer to 30 at that time?
    Ms. Fasano. They were getting closer to 30 or 40 minutes.
    Mr. Souder. Why do you think the pedestrian has jumped so 
much more than the times in the car?
    Ms. Fasano. It is a function of our inspection methods. We 
are doing a very intensified inspection. The major things we 
are doing there is we are checking most of the individuals who 
cross the border against our interagency data base. That is a 
time consuming process, particularly for U.S. citizens who are 
not required to carry a document. We have to manually input 
their names into the computer. That is extremely cumbersome for 
our inspectors.
    Mr. Souder. Are there awareness programs to increasingly do 
that? The same thing at the Canadian border, people weren't 
used to carrying documents.
    Ms. Fasano. They carry documents, but they typically are 
presenting a state-issued driver's license which is not 
compatible with our equipment. So it has to be manually input 
into the computer.
    Mr. Souder. Mr. Applegate, on the Customs--on the trucking, 
is that, the wait patterns there, near what they were before 
and how much of a change in traffic?
    Mr. Applegate. There was basically very little change in 
traffic and very little change in wait time. In fact, none.
    Mr. Souder. Do you suspect that some--so that was a pretty 
dramatic reduction in illegal immigrants caught, 1,000 down to 
360 that you used in your testimony. Do you think that that is 
a function of obviously fewer people are coming right now 
because it is tightened, but it is moving to other parts? And I 
wanted to ask Mr. Veal to followup. Is it moving to other parts 
other than the prime border crossing? Is the illegal activity 
shifting? We are hearing this dramatically in Texas and 
Arizona?
    Ms. Fasano. The information that I have for INS, for 
apprehensions both at the ports and between the ports are down 
significantly, so this is not unique to San Diego. And I am not 
aware of any massive shift that is taking place to another 
location. The attempts at illegal entry are just down. The 
risks of being caught are extremely high right now and the 
smugglers are full aware of that.
    Mr. Souder. I should have said there was a shift already 
occurring pre-September 11th. I do not have information. Mr. 
Veal, has it shifted more in other parts of the San Diego 
sector?
    Mr. Veal. Mr. Chairman, we have managed to continue that 
downward trend that commenced with Operation Gatekeeper. So far 
this fiscal year we are down about 20 percent from where we 
were at this point last year. Across the entire Southern border 
we are down on the magnitude of about 35 percent across the 
board.
    Mr. Souder. Are you willing to say that you believe the 
amount, the number of apprehensions is not a reflection of lack 
of trying to catch people, it is a reflection of fewer people 
crossing?
    Mr. Veal. Yes, sir.
    Mr. Souder. It is not how much of that--the same question. 
Some of that is probably because of commerce?
    Mr. Veal. Yes, sir. That is a fair statement.
    Mr. Souder. One other question. Let me go to Mr. Filner 
now, and I will come back with a couple of questions.
    Mr. Filner. Thank you, Mr. Chairman. And again let me first 
start and thank you ladies and gentlemen in front of us. You 
are the people who they work for you and with you. This is the 
biggest border crossing between any two nations in the world, 
and they have a tremendous problem, tremendous challenge. And 
by and large, they meet it. We thank you for the service and we 
thank your men and women who work for you for that.
    In the weeks--I would say extending today, Mr. Chairman, 
the businesses close to the border and then decreasing closing 
as you move away, were in a state of emergency. Business has 
dropped 90 percent. It is now down to probably around 50 
percent. I asked the Governor and the President to declare a 
state of emergency for the areas because of this.
    And the situation is still fairly bleak. It is not just the 
wait times. It is the uncertainty. If you don't know whether 
the wait time is going to be 40 minutes or 2 hours, you tend 
not to do discretionary crossings which may cause you problems. 
So I believe, as I said at the beginning, and I think you 
implied in your opening statement, that we can have both at 
this border the security that we demand in the light of 
September 11th and the efficient crossing that our economy and 
our culture and our family ties also demand. And that is, I 
think, our aim here, to try to do both.
    I have had frequent discussion with Ms. Fasano about that. 
I just want to get on the record. We have 24 gates at San 
Ysidro. And how many are at Otay Mesa?
    Ms. Fasano. Ten.
    Mr. Filner. That is the commercial crossing and San Ysidro 
is the noncommercial traffic. How many of those lanes--use the 
San Ysidro--are open? What is the average number of lanes open?
    Ms. Fasano. The average number of lanes that we staff is a 
function of the volume of traffic. On a midnight shift we would 
only have about eight lanes open. During the high-peak periods, 
which is the morning rush hour and weekends, we have about 22 
lanes open.
    Mr. Filner. I want to ask you, but I wanted to get on the 
record, and just to preface this, Mr. Chairman, there was an 
experiment a year or two ago where all 24 lanes were open 24 
hours a day. And the wait times went below 20 minutes, if I 
recall. And for people in San Diego who depend on that, that 
was a pretty good time. That would be my goal. I don't know 
what it is, the agency's goal to get down to.
    But I asked you what would you have to--so if we did open 
all of the gates at all hours, we could, with proper staffing, 
have the security and efficient movement. How many more people 
do you need, both Customs and INS, to accomplish that goal, if 
that were the goal, 24 hours, 24 gates open?
    Ms. Fasano. Well, first let me say that with additional 
staffing, we obviously could open additional lanes. I think the 
benefits that would be significant would be in our pedestrian 
area, because we just don't have the staffing to open up all 
eight lanes. We do open close to all 24 lanes during the heavy 
traffic period. But we have a serious problem with our lack of 
sufficient infrastructure at the border. The 24 lanes is 
clearly not sufficient to process that mass volume of traffic, 
and we need to work toward expanding the capacity of the 
northbound vehicle traffic. And the process is moving extremely 
slow. And we look forward to some improvements in that area 
sometime soon.
    In terms of staffing levels, we did receive an enhancement 
and I expect to receive further enhancements from some of the 
budget supplementals. We received 60 additional inspector 
positions. Most of those will be assigned to San Ysidro. But to 
have a significant impact on improving the efficiency of 
operation, we are talking about as much as a 50 percent 
increase in staffing to manage the large inspections program I 
have in this district.
    Mr. Filner. 50 percent more would be how much?
    Ms. Fasano. About 300 positions. We have 600 currently. But 
that would cover all six border crossings, not just San Ysidro.
    Mr. Filner. In the budget we passed there were, just at 
INS, I think 1,000 new inspectors over 5 years. Those are for 
both borders. We don't know how they will be allocated.
    Ms. Fasano. Largely to the Northern border.
    Mr. Filner. I had the opportunity, Mr. Applegate, to sit on 
the plane last night with your boss, the Commissioner of 
Customs. So I am hopeful that we will get more resources on the 
Southern border than the Northern border has had some publicity 
about.
    It is not just the personnel that would help you, it is 
better technology, better--you described the thing which sounds 
to me like the Middle Ages, just because they don't have a 
certain document you can't input it. I mean, you would think 
that we could remedy that kind of quickly.
    But it has been identified that out of all of those 
millions and millions of traffic inspections every year, a high 
percentage, something I would say close to 90 percent if I 
remember the figures, come from a relatively few number of 
crossings; something like a quarter million of crossings give 
us 90 percent of the crossings. Is that a roughly accurate 
figure?
    Ms. Fasano. We don't have exact figures. But we have heard 
as many as 300,000 frequent crossers in this region.
    Mr. Filner. If, Mr. Chairman, there was some way technology 
through the kind of program we run, the Century program and 
others, to do--I mean that is a sizable number. But if we 
could--because they only have 12,000 in the Century program. 
But if we can move up the background checks and the ability to 
provide those frequent crossers with a way to get across 
quickly, SmartCard, CenturyCard, whatever you want to call it, 
we have solved a very big part of the problem it seems to me.
    And if the Customs has done this with brass now--they have 
taken the major shippers, for example, done background checks, 
done criminal checks, they have the confidence that those folks 
can go through faster, with efficiency, and that is, I think, 
what we need to do with the individuals.
    We can do this. I think we can maintain the security we 
need, but get those frequent crossers across very quickly. If I 
may just ask, I know my time is up, Mr. Chairman, you said 
there were 12,000 in the Century program. Do you have a goal 
for how many you would like to see there? What are you trying 
to do there?
    Ms. Fasano. Well, we are constrained by the capacity. We 
only have two vehicle lanes that have the equipment for Century 
users. They have a capacity together of 24,000. Now, the 
enrollees don't necessarily cross the border every day. But we 
think we can only accommodate about 30,000 people with our 
current infrastructure. So we need the resources to expand the 
number of lanes. San Ysidro I am sure could clearly utilize 
four to six Century lanes. We also need the similar technology 
for our pedestrian crossers so they can have an expedited 
automated system as well.
    Mr. Filner. It is like medieval technology here for a 21st 
century number. If I may indulge the chairman with the time, 
Mr. Veal, thank you for your testimony. We should take it back 
to Washington. Mr. Chairman, not on the numbers which we 
generally talk about for border patrols and the others, the pay 
scales are extremely important. The work conditions--and Mr. 
Veal mentioned--I don't know if it is in his written testimony, 
but it is the quality of their work, that we ought to--the 
equipment that they use is not sufficient. They had radios they 
can't communicate with properly, especially in emergencies. 
Their bullet proof vests are--a couple of years ago were hardly 
bullet proof. They were really backward. That contributes to a 
lack of morale and a lack of ability to protect this Nation.
    So I think we should take back to Washington Mr. Veal's 
testimony to heart. It is not only the numbers. It is pay. It 
is benefit, equipment, it is uniforms. And I would assume this 
is true for your agencies also. And the quality of life, we 
have spent some time with the military quality of life in 
recent budgets. We have recognized that our military folks need 
housing and they need, you know, proper pay, and they need the 
benefits to give them the morale to serve. And we have to think 
translate that to our civilian defense force, our Border 
Patrol, our Customs agents, our INS agents, and give them that 
sense that they are really part of our homeland security and 
reward them through pay and through work conditions that would 
reflect that.
    I thank the Chairman.
    Mr. Souder. Thank you. I am going to ask a few questions 
that we are uniformly asking along the border. I have two other 
quick ones before I get into that.
    On almost all of the Northern border crossings right now we 
have met people who have been transferred north from the south 
border. How many agents have each of you had? Is that temporary 
or long term?
    Mr. Veal. Mr. Chairman, the San Diego Sector recently 
supplied 50 officers for details to the Northern border. Now 
those officers have since returned to San Diego.
    Mr. Applegate. U.S. Customs did not transfer anyone to the 
Northern border. We have maintained our staff.
    Ms. Fasano. I also have not sent any staff to the Northern 
border, although I have supplied several special agents to 
assist in the World Trade Center investigation. We have 
actually been the recipient of additional resources. The Border 
Patrol has sent us 20 agents over a 60-day period. And we also 
have some inspectors at San Ysidro from other locations in the 
western region.
    Mr. Souder. I am not going to be able to resist this 
comment from time to time today. I am from Indiana, and I have 
been in Mexico and South America several times in the last 6 
years in working with the different governments there.
    But we have for a long time heard from the north border 
that there can't be a different standard on the north border 
than the south border even though there weren't as many risks. 
I mean, as was eloquently said here, most of the narcotics is 
coming across at this point, more of illegal immigrants.
    And now all of a sudden the shoe is on the other foot, and 
the fact is we are going to have to have similar policies on 
both borders just as we did on immigration, on narcotics, now 
on terrorism. And it is going to be interesting to see whether 
we can in fact get to a better targeting policy without having 
other types of overtones in those policies, because trying to 
do all of those things simultaneously on both borders is not 
going to lead to an efficient use of funds.
    Let me ask a couple of particular questions. In the north, 
in particular, we focused some on the lack of people with 
multiplicity of languages. Do you see increased need for 
language bonuses? I assume a high percentage of our personnel 
can speak Spanish. Do you have anybody in the San Diego Sector 
who could deal with Farsi or----
    Mr. Veal. Mr. Chairman, all of our officers are required to 
be fluent in Spanish. We also have officers who are 
polylingual. We do have several officers who are fluent in 
several Middle Eastern languages.
    Mr. Applegate. You are correct. We have a sufficient number 
of employees who speak Spanish. We have an awards program so 
they do get reimbursed for using that language ability. As a 
matter of fact, recently we were queried regarding were any of 
our staff who are receiving these language awards fluent in 
Farsi or Arabic, and the answer was no, we do not have any.
    Ms. Fasano. As part of INS, our officers again are required 
to be fluent in Spanish. They receive significant training in 
that area, and that is the predominant language of course they 
would use in conducting their work here on the Mexican border, 
but with a large population of employees, of course, we have 
individuals that speak many different languages, including 
Middle Eastern languages.
    Mr. Souder. One of the things that we have run into, for 
example, on the Quebec border, we had a man who grew up there 
in Quebec and French was his first language, but he could not 
pass the language test that the State Department requires. We 
may have some unrealistic expectations as far as what is needed 
on a border to deal with identifying certain packages. If you 
could talk to any of your employees and just kind of get some 
random sampling as to whether more would seek language courses 
if we either changed the bonus structure--there is some bonus 
structure now for that--or is a standard that was slightly 
different than the State Department standard for people who are 
working on the border rather than working in another nation in 
a Department of State office. We need to address this question.
    Another question we have in this--we apparently put--I know 
from having been here a number of years ago there is more 
fencing and lighting in the border, down along the border. Do 
you believe that has been effective, has helped contribute to 
the declining number?
    Mr. Veal. Yes, Mr. Chairman. I think you have to look at 
everything as a package. It is not just the number of officers, 
it is important to have infrastructure. It is important to have 
the roads that go right to the border. It is important to have 
the border demarked. The fence served a significant purpose in 
that. So it is the fence, the light, the road, the officers all 
together. It all adds up to border security.
    Mr. Souder. Mr. Applegate, if you could on the--I 
appreciated in your written testimony you had quite a bit on 
industry. It is clearly something that we are going to move 
toward, and I will have some further questions on that as we 
deal with the business groups. But one of the vulnerabilities 
that we really haven't focused on are on clearing rail traffic. 
Could you, I mean, maybe make a couple of comments on rail?
    Mr. Applegate. We do have some rail traffic here in the 
southern California CMC; that is, Imperial and San Diego 
Counties. Our biggest operation is in Calexico. They have one 
train per day, 30 to 40 cars. It is inspected almost on all 
occasions with Border Patrol assistance, with our canine 
officers there, and we have had numerous marijuana seizures. 
The main concealing method has been in the undercarriage or 
wedged in angle areas of the hoppers.
    We also have been funded and are going to be installing a 
rail baccus, which is an x-ray machine that will be able to x-
ray the entire railcar. So that is in addition. This is a very 
small operation in Tecate and here at San Ysidro we have rail 
coming across on occasion, exclusively empty rail cars.
    And we also have, when we do those, they appear by 
appointment also, and we also have Border Patrol agents there 
for those. So rail here is not a major component of our 
commercial operation. It is growing, and as it grows we are 
making sure that we get the infrastructure that we need to deal 
with it properly.
    Mr. Souder. Thank you. Clearly we need to move like your 
industry system on an accelerated path, on the NEXUS as far as 
individual car traffic. And I don't know how--but I assume that 
the NEXUS model could be used for walk across traffic to 
pedestrian traffic.
    Ms. Fasano. Yes. The Immigration Service has a system 
called INSPASS at several international airports. We are 
anxiously waiting to see a system like that implemented at San 
Ysidro. It would be extremely helpful for our pedestrian 
traffic.
    Mr. Souder. Any suggestions you have to us, this committee 
has very broad jurisdiction, not only do we have commerce 
first, narcotics, then we have all of the justice and commerce 
division, in trying to look at--in addition to other agencies, 
but in addition to trying to look at this question of whether 
the State and local law enforcement perhaps--I don't quite 
understand why driver's licenses don't work in this kind of--
and I don't think it is going to be realistic to even get a 
passport or when I go across from Canada, which I do more 
frequently, than at the same time the idea of did you bring 
your birth certificate. I don't know where my birth certificate 
even is. This is not going to be functional. Some of us have 
some concerns about national ID cards. Clearly we're moving in 
that direction, Social Security is supposed to be that, but 
then people duplicate it.
    But how to answer the question. The American public is not 
going to allow it. It is zero tolerance right now, particularly 
in the area of terrorism, it is a little tolerance on narcotics 
and a little broader on immigration, but not high in some parts 
of the country there. The question is how do we do this and how 
can we get the information on the suggestions you may have on 
how to integrate these information systems and yet not 
compromise them, would be very much appreciated.
    If you can each pass through to your employees that around 
the country we are all integrated in trade any more, but 
literally in Indiana that when kids die on the street there or 
when someone commits a homicide, judges are telling me 70 to 
80, 90 percent in our county, including civil, are drug and 
alcohol-related, lack of child support, bankruptcy cases. It 
isn't just violent cases. This is the biggest sector where 
those narcotics are coming across, continuing to see that in 
Indiana and elsewhere. We have made progress. It is not just 
terrorism. Last count we had a hard count, 18,000 people died 
of narcotics a year. In Seattle, there were zero on anthrax, 34 
on homicide, and 64 on heroin overdoses.
    And so we appreciate the hard work. I know it is a 
complicated thing. We are trying to figure out how to do the 
business side and we are also working on the Education 
Committee, too, in addition to this committee. We are meeting 
with the Drug Czar on how to do treatment and prevention 
programs. We have to do that, too.
    So if you can take each of our people who work for you, 
thank them for those diligent efforts, because it comes down in 
most cases to the individual agent's ability to identify the 
risk and get them into the secondary.
    Do you have anything further?
    Mr. Filner. Very briefly. Thank you for those last 
statements, Mr. Chairman. I think you are absolutely correct.
    Just one more statement if you--I have been bending 
Chairman Boehner's ear on this for 5 years, poor guy. But on 
the morale of our employees, many of--Mr. Applegate's and Ms. 
Fasano's agents are called inspectors. They are trained as law 
enforcement officers. They carry weapons. They face the risks. 
They have the scars to show that they perform law enforcement 
actions every day, and yet they were not classified by the 
rules that they have to follow as law enforcement officers.
    That affects their pay but, more importantly, retirement 
benefits and morale. It turns out when any of these agents die 
in the line of duty we inscribe their names on the Law 
Enforcement Memorial in Washington.
    So when they are dead we call them law enforcement 
officers. But when they are alive we don't. If you could look 
at that. I think the committee has had hearings on this once 
before. I would like to look at that.
    And just finally to followup on Mr. Souder's comments. In 
the wake of September 11th, this whole society has had really a 
renewed respect for our fire fighters, our police officers, the 
men and women who every day protect us, and I would hope that 
that extends to your men and women, Border Patrol, Customs, INS 
agents and inspectors also, because they are the first line of 
defense in this new world, and we hope that you will 
communicate our appreciations for their service. I respect our 
folks and we hope that we can live up to those words with 
actions.
    Thank you very much.
    Mr. Souder. Thank you.
    We are going to go ahead and start the second panel. Our 
first panelist is the Honorable Dianne Jacob, County Supervisor 
of San Diego Board of Supervisors, District 2. Thank you for 
joining us today.

STATEMENTS OF DIANNE JACOB, SAN DIEGO COUNTY SUPERVISOR; ROGER 
HEDGECOCK, FORMER MAYOR OF SAN DIEGO AND RADIO COMMENTATOR FOR 
 KOGO RADIO; DONNA TISDALE, CHAIRMAN, BOULEVARD SPONSOR GROUP; 
 AND MURIAL WATSON, FOUNDER, LIGHT UP THE BORDER PATROL COUNCIL

    Ms. Jacob. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to be here. I represent the 
Second Supervisorial District on the San Diego Board of County 
Supervisors, which is about 50 miles of our border shared 
with--and that is the eastern portion. The western portion is 
represented by Supervisor Greg Cox.
    The Board of Supervisors over the last 8 years has taken no 
less than a dozen actions urging the Federal Government to take 
responsibility to secure our border and to pay for our costs as 
a result of illegal aliens. Two days ago the leader of our 
Nation reminded us that the war against terrorism has not ended 
and that the potential for another attack on our soil still 
remains. The question that many Americans and many San Diegians 
are asking is when and where could another attack take place? 
President Bush's reminder makes the timing of today's hearing 
on the subject matter all too important, and we thank you for 
that.
    I don't think that you could find a more suitable location 
to hold this hearing given the difficult tasks San Diego County 
faces in securing our border and protecting our residents. 
Without question, the features of this region could attract 
someone with questionable motives, and has, and possible expose 
us to a terrorist attack.
    We have the busiest port of entry in the world, the largest 
contingent of military resources, an immense tourism industry, 
a thriving economy, a diverse population that is larger than 19 
States, and a high level of foreign nationals residing here.
    Inasmuch as our close proximity to the border poses a 
threat to our safety, it is also a vital component of our 
region's economy. The effects of September 11th have taken a 
toll on San Diego County's economy.
    With the intense scrutiny that is being applied to 
international travelers, border-related commerce saw an 
immediate decline. We need to continue the promotion of 
economic prosperity through international trade, but not at the 
expense of national security.
    There is a solution. Thoroughly check border crossers for 
accurate paperwork and authentic identification. Weed out 
suspicious persons in vehicles and release the stranglehold on 
the flow of traffic.
    At the same time this can all happen. Technology exists 
today to check people coming across the border at our ports of 
entry whether they be on foot or in vehicles. But the question 
is, will the Federal Government invest the kind of money it 
will take to acquire this technology? Customs officials need 
laser scanners to read now border crossing visas, not just the 
ones on our border now but laser scanners that will read all of 
the information on these cards, which includes vital 
information as to whether a person has a criminal record or 
not.
    The bottom line is this: The Federal Government has a 
responsibility to do it better and to do it faster, and there 
is no excuse. As we focus on traffic coming across ports of 
entry, we cannot forget about the flow of illegal immigration 
across vast stretches of border where there is limited 
restriction from coming across still today as we speak. It may 
be border traffic outside traditional ports of entry where our 
greatest challenge lies. Illegal immigration has been pushed 
further and further east, and we need to renew our efforts to 
secure every mile of the U.S.-Mexico border to stop illegal 
trespassers both on foot and drug smuggling.
    The number of agents must be increased and more resources 
are needed to better patrol our borders to keep potential 
terrorists from entering American soil. San Diego County is a 
member of the United Senates-Mexico Border Counties Coalition. 
This is an organization that is made up of counties along the 
southwest border with Mexico that share many of the same 
interests and concerns. Immigration problems that have plagued 
counties in California, Arizona and Texas for years are now 
being experienced in all 24 counties along the border.
    Each member of this coalition understands that this is not 
a small problem that can be easily solved overnight. But I 
would encourage you, as you have indicated with your presence 
here, to seek input from each of those counties that share a 
border with Mexico. It is with all of our insight and direction 
that the subcommittee, I believe, can make sound judgments on 
how to improve national security and facilitate local commerce.
    Last October, Supervisor Greg Cox, who represents the South 
Bay Region and the western portion of our border, joined me in 
bringing forward a proposal before the San Diego County Board 
of Supervisors regarding our Nation's security. We concluded 
that San Diego County should serve as a test market for Federal 
initiatives to improve border security since every factor of 
our society that faces a possible attack can be found right 
here. In the action before the board we called upon the Federal 
Government to do basically four things: Add more agents and 
better technology for the U.S. Customs and Border Patrol. 
Install the scanning devices to read laser border crossing 
visas. Develop a tamper proof permanent Social Security card. 
After all, the driver's license that was once in paper form is 
now tamper proof. Why not do the same with our paper Social 
Security card? And fourth, to ensure that INS officials better 
track people with expired VISAS.
    If those issues are not addressed, the potential for 
another attack will continue to increase. I have copies for you 
not of just my testimony, but of two recent board actions that 
we took, one that I mentioned and then another which indicates 
that we need more agents on our border and that we did not 
appreciate Border Patrol agents from our border and putting 
them on the Canadian borders. Both borders need to have an 
adequate number of border agents to secure both borders. Our 
public security, our national security and the lives of 
Americans depend on it.
    Thank you very much, and I am happy to answer any questions 
you may have.
    Mr. Souder. Thank you. Mr. Hedgecock.
    Mr. Hedgecock. Mr. Chairman, thanks so much for the 
invitation to be here today. I am a former mayor of the city. I 
am a talk show host in town, and I have conducted what amounts 
to a 16-year debate on those border issues, because of the 
paramount importance to the listening audience to the issues, 
some of which you will hear from other speakers. And, based on 
that experience, Mr. Chairman, my conclusion is a grim one. The 
border is out of control here along the California-Mexican 
border. The sovereignty of the United States has been severely 
compromised, and our vulnerability to terrorism is acute.
    Just this week there was an example of this. Ten illegal 
aliens were found to be working at the submarine base, the 
nuclear attack submarine base in Point Loma, the employees of a 
defense contractor that was doing work in and around the dry 
dock area and the dock area in which an attack nuclear 
submarine was tied up.
    I am told along our harbor front it is not uncommon for 
defense contractors to be able to use illegals without fear 
that even the defense investigative agencies that are supposed 
to verify the citizenship and the applicability of those 
workers to be working there in secret areas that they have 
slipped people by in lists--simply submitting lists of here is 
our employees, here is what we are going to be doing, okey-
dokey and they are on. This is obviously a warning sign, and 
clearly a warning sign.
    Now I will couple it, Mr. Chairman, with another 
unbelievable statistic. I know you sat very patiently and 
discussed with the heads of these agencies what is going on. I 
discuss with the people in the field nearly every day what is 
going on. It is quite a different story. One in 10 of the 
apprehended illegals in the San Diego sector of the Border 
Patrol, 1 in 10 are now from the Middle East. One in 10 coming 
across our border are now Middle Eastern young men.
    This is no longer Mexicans seeking to work. This is no 
longer Central Americans in the upheaval of wars and 
revolutions. This is something much, much different.
    Mr. Chairman, startling item No. 3: The truth is that the 
largest economic activity across the border with Mexico today, 
and it has been so for many decades, is the smuggling of 
illegal drugs and people. Every other economic activity of 
which you debate endlessly, and NAFTA and so forth pales into 
insignificance compared to the dollar value of the smuggled 
drugs and people, and the intertwined--as you get into this, 
the intertwined international conglomerates that run these 
businesses are billions and billions of dollars a month worth 
of activity going on.
    It is a fact that needs to be faced that underground 
economy crossing the border is much more valuable and has much 
more impact than does the above ground economic activity. Where 
did we find this out most dramatically? Mr. Chairman, in the 2 
weeks following September 11th, the folks who were sitting here 
on the previous panel were ordered to crack down and enforce 
the laws of the United States at the border. They did so. Drug 
smuggling stopped. Illegal alien smuggling stopped. Popular 
reports were aghast. You mean that the border could actually be 
secured if we wanted to? Yes. The answer is yes, as opposed to 
all of--whatever you have heard, Mr. Chairman, we now have a 2-
week period following September 11th when this country 
demonstrated beyond a doubt that this border could be 
controlled with regard to illegal immigration and the drugs 
which are impacting Indiana and every other part of our 
country.
    The fact that we now have that demonstration puts the lie 
to everybody else saying, well, it is impossible to do anything 
about this. Mr. Chairman, we have to bear part of the burden in 
the local community. I want to recognize this to you. Our 
police department, for example, for politically correct reasons 
has been ordered not to work with the INS, not to assist the 
INS in the enforcement of Federal law. When they come across 
someone that might be illegal, they don't call the INS.
    We have had in our local community a media, a politically 
correct media, which has even for years now never even 
mentioned the words ``illegal alien.'' they are some kind of 
immigrants. They are some sort of undocumented folks. No, they 
are not, they are breaking into our country. They are violating 
our laws, violating our laws, driving our emergency rooms out 
of business.
    And, in this tidal wave of people, which I will assume for 
the moment, Mr. Chairman, are simply here for economic 
opportunity and to get a job, in this tidal wave of people who 
are breaking down our institutions, who are flooding our social 
services, there is in this tidal wave those little subsets of 
people that are far more dangerous, far more dangerous to our 
society, far more dangerous in terms of terrorism, far more 
dangerous as we have come to believe.
    The Republic of Mexico, Mr. Chairman, finally, bears some 
burden in this as well. Congress has documented more than 50 
armed incursions by members of the Mexican military, in some 
cases firing at our Border Patrol agents with automatic weapons 
in order to protect drug dealers and illegal alien smugglers.
    Mr. Chairman, the border is out of control. The sovereignty 
of our country is being compromised as we speak and has been 
since those early days in the 1960's, when the Brasio Program 
was discounted, and I trace our problems from that time. And 
today, we find ourselves--as Dianne Jacob has pointed out, we 
find ourselves in a situation not only trying to cope with that 
illegal alien tide, which is rising every day, but with the 
fact that now this terrorism issue has been added to it, and we 
feel frankly like sitting ducks.
    [The prepared statement of Mr. Hedgecock follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.022
    
    [GRAPHIC] [TIFF OMITTED] 82954.023
    
    [GRAPHIC] [TIFF OMITTED] 82954.024
    
    Mr. Souder. Thank you very much.
    Ms. Tisdale.
    Ms. Tisdale. Good morning. Thank you for inviting me to 
speak to your committee. My name is Donna Tisdale. I have lived 
at the Morning Star Ranch in Boulevard for 25 years; my husband 
has lived there for almost 40 years. Our ranch is located about 
70 miles east of San Diego and about a mile and a half north of 
the Mexican border. My experience is with illegal border 
crossings in a rural county, because that is what I live with 
every day.
    Back in 1995 we had over 1,000 illegal immigrants per month 
trampling across our ranch, damaging our fences and leaving a 
lot of trash and mayhem in their wake. Now we have 200 per 
month. While that is a major improvement, I doubt that any of 
you can claim that you have 200 trespassers per month violating 
your properties. I want you to understand my neighborhood is 45 
miles from the nearest big town, population of 18,000, and 
about 8 miles from any town at all. We are literally in the 
middle of nowhere, and still we have all of this illegal 
trafficking going on.
    One major improvement is the fact that most of our calls to 
Border Patrol now do get a response, which was not the case in 
years gone by.
    This is a busy time of year. Several times this past week I 
have gone to bed with a helicopter and Border Patrol vehicles 
circling our ranch, and I have been awakened the next morning 
with more of the same. Every time I go down the road to get 
mail or go to the market, I see illegals or Border Patrol 
pursuing illegals. I am not exaggerating. I am not complaining. 
I am glad that the Border Patrol is there. I have lobbied for 
them to be there, and I am here today lobbying today for more 
agents.
    When the government focuses attention on securing the major 
ports of entry, such as San Diego, Otay Mesa, and Calexico, 
that action pushes illegal traffic into our rural communities. 
Just like water, illegal traffic will seek the route of least 
resistance. The buildup of Border Patrol stations in Arizona 
and El Centro and the new fences in San Diego also pushes 
traffic our way.
    I live in the Campo Sector Border Patrol, and my family 
does have a good working relationship with them. We come in and 
request agents on a regular basis and discuss the problems that 
we are all faced with. The Campo Sector is down about 100 
agents right now. We have lost agents to Arizona, El Centro, 
even the Canadian border and to other government agencies. 
There is a lot of attrition and there is no backfill.
    Campo has been approved for 303 agents, but they are 
waiting for funding. The Campo and El Cahon Sectors have to 
keep trading zones depending on who has the agents to do the 
patrolling.
    Another problem our agents deal with is the need for new 
vehicles. Our agents are driving 1995 Broncos with well over 
100,000 on them. If you drive by the Campo Division, you will 
see a lot of disabled Broncos gathering dust. These vehicles 
are all beaten up from bouncing over rough roads. Agents tell 
me they have to cannibalize parts off of one Bronco to try to 
get the others back on the road. All of the frames have stress 
fractures that can't be fixed, and Ford cannot replace them. 
Please try to direct some funding toward new vehicles to get 
our agents back on the road. They also need funding for new 
roads and fence work.
    Another unmet need in our area is for the installation of a 
remote video system. Technology is there to place remote 
cameras directly on the border. This camera system will allow a 
better view of the illegal activity going on at the border 
while saving manpower and freeing up agents to be directed to 
where they are needed rather than having them sit on an X. I 
think those cameras would pay for themselves quickly by 
improving apprehensions.
    I would also like to go on record for being in favor of 
using our military in a supportive role for the Border Patrol. 
They would not have to be used to apprehend illegals, but could 
instead do reconnaissance, surveillance, and even rescue work 
to free up agents to do the apprehensions. Navy SEALS already 
train in the Campo area. Why not let them provide a service at 
the same time?
    Our area of the county is not the only problem area. Other 
activists say that in Duluth Canyon, Ecandia Creek, the area in 
the north county is heavily impacted with illegal traffic which 
then floods into Riverside. Reportedly the Border Patrol is 
being pulled out of that area at night because it is too 
dangerous. My sources claim that agents have called them asking 
for citizen pressure to get them back in the area to do their 
job.
    In closing, I want to solicit support for more enforcement 
of our immigration laws. Every day thousands of illegals get 
past our Border Patrol. When they do, they are literally home 
free. I also strongly urge that all amnesty and regularization 
be stopped. Every time amnesty is mentioned, more illegals 
flood the border trying to make sure that they get here in time 
to benefit. Those who have bypassed and flouted our laws should 
not be rewarded. I am not without compassion, but I feel that 
our country needs to stop winking and nodding at illegal 
immigration and needs to seriously limit legal immigration to 
200,000 per year to give everyone time to adjust.
    Overall, accepted immigration degrades the quality of life 
for Americans, all Americans, both old and new. I wanted to 
make one little comment that I didn't put in my written 
statement. Back in the days when our community was being 
flooded, we noted the threat that it has presented with 
terrorism. We were laughed at. Nobody wanted to take us 
seriously.
    So I feel like it is kind of like the canary in the coal 
mine. We are out there.
    Thank you.
    [The prepared statement of Ms. Tisdale follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.025
    
    [GRAPHIC] [TIFF OMITTED] 82954.026
    
    Mr. Souder. Thank you.
    Ms. Watson.
    Ms. Watson. Yes, good morning, Mr. Chairman, Congressman 
Filner. I am glad to see you here. I am just sorry that we 
haven't had more attention to this area over the last several 
years.
    I am a private citizen considered to be an advocate for the 
mission of the Border Patrol and an activist.
    I just get up and do things. Like in 1971, I decided that 
Congress needed to hear about the Border Patrol problems in 
1971. And I went to Washington on my own and lobbied Congress, 
and had the support of our local Congressman from El Paso, 
Texas at the time, who verified the things that I was saying.
    However, like the canary, many of the Congressmen didn't 
believe me. And in fact John Rooney called me a dangerous 
woman, that I was lying. And, you know, for 30 years, we have 
been whistling in the dark here. And you heard from other 
areas. And it is a long sad story. And in 1971 I was appointed 
to the National Border Patrol Council as their Public 
Information Officer because I was somebody that was yelling and 
screaming. During that time we lobbied for funds and manpower 
and stressed the need for public attention to the growing 
problem of illegal entry.
    Border Patrol noted that in 1971 the apprehension rate was 
136,000 for our Western Region. And in 1976, it jumped to 
438,000 for the Western Region, but we were still at the same 
staffing rate. The mission of the Border Patrol was failing and 
the morale of the agents were at rock bottom.
    In 1979, my husband was appointed to be the officer in 
charge of the Chula Vista Station. This was the only station in 
town; one station for the 16 miles of border from the sea to 
Tin Can Hill. He had 295 agents for his 24-hour, 7-day-a-week 
mission.
    The apprehension rate at that time for the Western Region 
jumped to 549,000 for the year. Came to our attention that for 
fiscal year 1979 $2 million of appropriated funds that we had 
been lobbying for was returned to the Treasury because they 
didn't know what to do with it instead of sending it on to the 
Border Patrol.
    At that same time in 1979, the hostages were taken in 
Tehran, Iran, and the visas that staff of the State Department 
had distributed were being honored at ports of entry even as 
our citizens were being held. At that time, 11,000 Iranians 
were being allowed into the country.
    I was able to get this story into the New York Times, and 
although it created quite a stir, nothing was done. The fact is 
that when spring break came the students went back to Iran, 
rioted in front of their embassies, death to Americans, and 
then came back and took their final exams at the local 
colleges; you know, the right hand not knowing what the left 
hand was doing.
    All during the 1980's I launched a program called Remember 
the Hostages. We were very successful with the bumper stickers, 
and San Diego rose up in concern. We designed a billboard 
saying the same thing, and the executives of the Pacific 
Outdoor Advertising adopted the design and put up the 
billboards as a public service all over the country, Remember 
the Hostages.
    All of this was a reflection of our out-of-control visa 
program and the lack of ability on the Immigration Service at 
the ports of entry to even question the visa holders. It was a 
great moment when our people were released and they all came 
home.
    Meanwhile, in the San Diego Sector the apprehension rate 
jumped from 59,000 in 1971, that is right here in the San Diego 
area, to 326,000 in 1981, creating horrific stress among the 
agents. They were robbed, they were shot at, they were pushed 
over cliffs and killed. And while they patrol the wide open 
international line, no one saw this as terrorist activity.
    In December 1981, my husband passed away, so I resigned my 
position as the National Border Patrol Council spokesperson but 
continued to speak, speaking engagements, to inform the public 
about the mission of the Border Patrol. By the late 1980's the 
chaos at the border was astounding with people running through 
the port of entry and walking up the freeway to any point 
north. The State transportation system set up orange markers 
approximately 3 miles setting aside two lanes on the south side 
and two lanes on the north side for pedestrian traffic on one 
of the busiest freeways in southern California. It appeared to 
be an open invitation to run the border.
    I decided the danger was not only for the people running 
but to the driving public, so I took a deck of cards and sat in 
the middle of the highway in the median stating if the State 
was establishing a park in the freeway I would use it, too.
    Two days later, CHP and the Highway Patrol took down the 
stanchions and opened the freeway. As time went on I wracked my 
brain on what to do. I called on a few friends and neighbors to 
go with me to the border area along Dairy Mart Road, which is 
the first American street on this side of the border. I asked 
them to park their cars and when night fell to put on their 
headlights and let the Border Patrol agents know that they were 
supported by some of the public.
    We started with 23 cars. So in November 1989 Light up the 
Border was born. We went 1 day a month and kept in touch by 
phone. Every one understood the rules for the meetings. The 
late afternoon would--come to the border in the late afternoon 
with a full tank of gas and to line up without blocking 
traffic. When the sun went down to turn on their headlights and 
stay in their cars. We would stay approximately 30 minutes and 
leave in an orderly fashion.
    Our local Congressman, Duncan Hunter, heard about what we 
were doing and his aides attended a light-up. In the meantime a 
local radio talk show host heard about the demonstration and 
said he would spread the word. It was to support the border 
patrolmen. I was overwhelmed in March. We started in November. 
We had meetings in December, January, February. In March 1990 
was a turnout of hundreds of cars and TV cameras. Not everyone 
liked what we were doing and we had protesters. The people who 
came to light up were great and stayed in their cars and 
ignored the anti-light up people.
    Our local Congressman, along with Brian Bilbray and Duke 
Cunningham, went to work. They contacted the National Guard to 
start building a fence, contracts for lights were made and the 
whole idea got the attention of the public. Today, there are 
lights along the border, and in heavier corridors of smuggling 
fences. Unused steel landing mats were shipped to the San Diego 
area. The National Guard engineering units were busy placing 
the fencing along the international line.
    On January 24th, 1996, the FAA issued a security alert for 
all U.S. airports. It was a Level three alert that required all 
persons boarding any aircraft or checking in baggage to present 
two forms of identification, including a picture ID.
    I co-founded a citizens group to walk through the airport 
and bring attention to the need for the commercial airlines to 
conform. We talked to one airline clerk and one security guard. 
Our mission was to watch and to see to it that all passengers 
were checked. We did not stop anyone. We did not point to 
anyone. And we even had a reporter and a cameraman walk along 
with us to see what we were doing.
    This caused a stir and a local group rioted on the airport 
grounds. The Port Authority brought an injunction against me to 
be on the particular spot at the airport where in fact I could 
not see passengers check in or actually board a plane. We 
appealed the injunction and won the case.
    We were informed by the court that if we wanted to watch 
the airport function under the new FAA regulations, it was our 
right to do so. Well, now the National Guard is doing this job 
and airport security is one of highest priorities of our 
government.
    Illegal aliens have used the airport system for decades. 
The Border Patrol is there, another duty station for these 
overworked agents. But like everything else the mission of the 
Border Patrol, they haven't--in the mission of the Border 
Patrol, they haven't got the resources to do the job.
    In spite of Federal laws, many States are affording known 
illegal aliens driver's licenses and relief from out-of-state 
tuition for our State colleges and universities.
    And I thank you for your attention.
    [The prepared statement of Ms. Watson follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.027
    
    [GRAPHIC] [TIFF OMITTED] 82954.028
    
    [GRAPHIC] [TIFF OMITTED] 82954.029
    
    [GRAPHIC] [TIFF OMITTED] 82954.030
    
    [GRAPHIC] [TIFF OMITTED] 82954.031
    
    [GRAPHIC] [TIFF OMITTED] 82954.032
    
    [GRAPHIC] [TIFF OMITTED] 82954.033
    
    Mr. Souder. Well, thank you very much. Let me make a couple 
of comments related to some of the specifics on your testimony. 
First, is that what would be helpful for us? You made allusion 
in your statement, in your testimony that all 24 counties along 
the border, if you and Supervisor Cox and whoever could 
become--does the Congress of Counties have any kind of subtask 
force at this point on the border?
    Ms. Jacob. I am not aware. The Border Counties Coalition 
was formed several years ago, because we all have similar 
problems.
    Mr. Souder. To the degree that the Border Counties 
Coalition--I believe that the National Congress of Counties, 
that some on the north border could unite and give us some 
direction, where we see--because it is going to be variations 
between those in urban areas and where there are rural and 
suburban. When we push one we effect them all, but to the 
degree we can say this is supported kind of uniformly along the 
border, as opposed to it being seen as one subgroup.
    Now, obviously making San Diego a model is a separate 
question from some of the broad principles. But the Governors 
are trying to do this, we are trying to do this with a 
parliamentary group and U.S.-Canada and U.S.-Mexico and work 
together as to how to deal with, because we are receiving so 
many different messages in. And we are--let's just say we have 
run out of money. It is not a question whether we are running 
out of money, we are going to run a deficit this year. And 
every single question has to be matched up with, are we going 
into Social Security? What is it doing to the economy as a 
whole? And yet we all realize this is important because we are 
going to have to prioritize it to the degree that we see 
different needs along the border unified in ranking order that 
will help.
    Ms. Jacob. I am happy to do that and to work with our 
Border Counties Coalition, Texas, Arizona and California, and 
seek out and see what the others are doing, see if we can come 
up with a comprehensive package. Is that what you are asking 
for?
    Mr. Souder. Yes, and some hierarchy inside that. Everyone 
getting their thing on the list is not helpful. Because, as you 
know, in the supervisors, if everybody gave you a list of--a 
wish list without any hierarchy of every single thing is good, 
the question is how do you decide which is the most important. 
And at least from the perspective of your organization, there 
is a lot of consensus developing, and the very tough question 
is how we share costs. The Federal Government is not going to 
bear all the burden. The local government shouldn't have to 
bear all of the burden, because the traffic is heading 
disproportionately at the border, but it heads into the whole 
country.
    And then the second part of that is that we are going to 
have some user fees on those, like at the airports people have 
to pay $5 at each stop-over for additional security. It covers 
that at best, at best 20 percent of the cost. That is not 
counting Federal employee benefits which we will have to pay 
for. But there is going to have to be some cost related to the 
shippers and others, because we all realize we are going to 
need to have an ability to kind of counter-balance this, the 
trade questions and the security questions, and the sharing of 
that is going to become more important as this heightens.
    Ms. Jacob. If I may, Mr. Chairman, San Diego County 
calculated our costs across the board some years ago, and on an 
annual basis it is costing us about $65 million a year. A large 
part of that are criminal justice costs. But we are shouldering 
the burden of failed Federal policies in regards to illegal 
immigration, and that is a common problem around at least our 
Southern border that we share with other States and Mexico.
    I understand what you are talking about, additional costs. 
But I just want you to know we have been shouldering a huge 
burden of those costs, and that is discretionary money that 
could be going into other services for legal residents of our 
region.
    Mr. Souder. Let me just say, and I can say this. I am not 
running for office here.
    Ms. Jacob. Nor am I.
    Mr. Souder. And I am a friend of the general cause. But I 
am sure the next panel is going to stress the dollars in trade. 
Dollars in trade means you are getting sales tax extra, income 
extra, income tax extra that other people in other parts of the 
country aren't getting. The other--you are also getting the 
revenue benefits in the area. And not only the tax revenue 
benefits, you are getting revenue benefits in the sense of the 
employee who works at the places along the border that do the 
tourism that get other businesses. There are both sides. And 
that while you did get additional Federal costs, you also 
benefit from being along the border.
    That is a fact of life, too. Part of the reason when people 
from the border areas ask why isn't Washington being more 
responsive, look, I have an MBA. There is a balance here. And 
often we are told about the cost of this, but it is--you also 
have a benefit. Realistically, you--at times when we put more 
pressure on, particularly if we reduce the revenue coming in 
and increase the cost, you get a disproportionate. We know we 
are going to have to bear more, but we have to have a realistic 
discussion.
    Ms. Jacob. If I may, Mr. Chairman, there was a study done 
by two professors at San Diego State University several years 
ago that did calculate the economic benefit, those costs versus 
the actual costs of the illegal immigration in San Diego 
County, and we are still in a huge deficit situation.
    Mr. Souder. I would appreciate the findings of that.
    Mr. Hedgecock, first as a fellow conservative, we may not 
agree on all things, but as Mr. Filner knows, I am part of the 
right wing group in Congress, so I appreciate listening to you.
    A couple of comments. Any particular documentation on one-
tenth Middle Eastern? That is probably not the--does not count 
the daily back and forth people? In other words, those who come 
and stay.
    Mr. Hedgecock. These are illegal apprehensions in this 
sector. And again, I am getting that from the agents. That is 
not getting into the statistics. Although I must tell you, Mr. 
Chairman, our heightened awareness in the week following 
September 11th, there were simultaneous revelations of groups 
of Middle Eastern men in that week trying to come across the 
border illegally. So we were in an even more heightened 
awareness during that week.
    Those statistics I am not confident that you are going to 
get through the regular channels.
    Mr. Souder. They may not be a long-term statistic.
    Mr. Hedgecock. What is alarming to us in that regard is 
that it is increasing since September 11th.
    Mr. Souder. The second part is the 10 subcontractors. One 
of the conservative dilemmas here, and Secretary Rumsfeld just 
started to address it, we were big for privatizing some of the 
contracts. Part of the conservative theory said, decentralize 
some of the Federal Government. Now we are seeing some of the 
dangers separating inside our movement, traditional 
conservatives, and libertarians.
    And as we start to deal with this question it looks like we 
are going to tighten up Federal contracting and probably have 
the government take over some of those screening tests. We are 
wrestling with do we want maximum flexibility for the private 
sector, but the American people are not going to tolerate 
nuclear bases having illegals who haven't been screened getting 
on the base any more than they are at an airport.
    And so we are trying to figure out the balance of a 
priority risk here, which is one of the things that really is 
missing right now from this whole terrorism discussion, is a 
logical risk assessment, and that it would be a lot tighter the 
more risky the situation is. Right now if you talk to people 
everybody in every city thinks that their libraries or school 
football game is at risk. But there are higher risks than 
others exponentially, ability to deliver terrorist acts, and we 
need to do something about that. But that was very disturbing.
    Is what you said public record?
    Mr. Hedgecock. Yes, sir. There was an article both in the 
L.A. Times and the San Diego Union on Monday of this week. We 
also--several of the Internet services carried this issue. And 
I think you can get confirmations of it from the INS. They 
released the 10 workers back into Mexico without further 
criminal investigation.
    And, again, I will assume, Mr. Chairman, that they were 
simply workers looking for opportunity. But opening the door 
that they did certainly gives someone with the mentality of a 
Mohammad Atta an access that we would not want. And I would 
just urge liberals and conservatives to address the issue not 
with respect to doing away with the benefits of the contracting 
out, which we found here to be very good for everybody. It is a 
win-win situation to contract many of these services in the 
private sector here for flexibility, for cost, for a whole 
range of reasons.
    But the idea that an employer could come on to what amounts 
to a top secret base like that with people who are illegally in 
the country is a failure of the intelligence and the security 
issues within the Navy Department. And I would suggest that all 
of us could agree that the Navy Department ought to be doing a 
lot more checking on those workers, and indeed they are 
supposed to be.
    Mr. Souder. 15 percent of the security check were illegal, 
80 percent were legal aliens. 15 percent were illegal. And one 
of the terrorists on September 11th was cleared at Dulles 
Airport. So it is problematic. Now partly when you have blatant 
risk, and not everybody is identified in the system at the same 
level of risk, these are difficult questions we are working 
through. And I have as one of the conservatives in Congress had 
a tough time with this, because we need to crack down and 
identify better.
    At the same time, depending on who is in charge and what 
they want to crack down on, I am a little nervous about how 
much the Federal Government should have in this type of thing.
    That is why we have put a 5-year moratorium on it. It is 
not only the Democratic side voted for that, but a lot of 
Republicans. The second thing was you have to clear it and 
judge. Clearly we have to have people on a watch list. This is 
a tough balance in a civil libertarian question.
    Let me move to Ms. Tisdale for a second. One of the 
references you made, and I know there is a lot of popular 
sentiment for this. We are not going to use the military for 
most things related to this issue, regardless of militia. A lot 
of people think the National Guard is actually military. They 
actually report to the Governor. They are militia. There are 
constitutional reasons why we did this.
    You more specifically said rather an apprehension, some 
technology. I suspect that we will see some additional help in 
technology on the border. But one of the important things for 
the general public to understand is that as important as these 
issues are, that long-term constitutional separation between 
domestic law enforcement and defense, too often when we have a 
crisis we forget why we have certain laws. And as you watch 
other countries in Central and South America, in particular in 
a lot of the Middle Eastern countries, Pakistan being an 
example where the military seized power, we don't want to risk 
that in our country.
    And that is why even though there is a lot of popular 
support for this right now, it just isn't going to happen on 
either side. How to share the technology is important and is 
done some, but should be done very carefully or we might create 
a situation long-term looking at this 20 years from now worse 
than our short-term problem.
    Now first, I want to thank you for coming forward. It is 
not easy to come forward when you are right there in the front, 
and vulnerable at a personal level. I thank you for that, 
because without testimony of individuals as we have heard from 
time to time on this border, we--take one community that Mr. 
Hedgecock in a hearing in Arizona we actually had the--shortly 
after one of the most prominent DEA agents who had been shot by 
a Mexican Border Patrol person who was initially helping him 
apprehend, then realized they were chasing a narcotics guy, 
turned around and starting firing at our guys and shot one of 
them.
    Let's just say our police departments aren't all clean 
either. We have had the problem on the border around, Miami 
being the most flagrant example over the years. But we are 
comparing maybe 5 percent penetration at extreme compared to 
some places along the border we have had as much as 80 percent, 
uncertain as to that.
    We have worked with the Attorney General of Mexico, 
president--former president and now president Fox, who has 
worked hard, particularly in this corridor where DEA for a long 
time pulled our agents out of the other side that president 
Zedilla worked, because he had some Governors in some of the 
areas that he wasn't even sure that they were clean. The drug 
czar of Mexico after all was in an apartment owned by one of 
the cartel people.
    At the same time that is not to say that they aren't making 
an effort toward it, That there aren't individuals in those 
forces that aren't trying to clean it up. And we need to 
support those people and their government who are trying to do 
that. I believe at least at some levels there are. There is a 
lot of money passed on here, not only for drugs but for 
immigration.
    I want to ask one thing. Does the fence come out as far as 
you live?
    Ms. Tisdale. We have a single fence. It is mostly to stop 
vehicle entries. It does nothing to stop the foot traffic or 
the drug smuggling.
    Mr. Souder. Let me mention one other thing. Clearly, 
everybody crossing the border should assume, on the north and 
south, that there is going to be increasing camera 
surveillance. We are not going to announce it, because it won't 
work once it is announced. It is going to have some mobility to 
it. I think your comments on the mobility were important. I 
have been to some of those points at night where you almost--
particularly when you have the environmental orange marks where 
you can't go through, you can trample, but you can't have any 
U.S. Government agents trample on them, at least, that as we 
work through these kind of problems, and some of those areas 
where we have more of that in--in parts than others, it is--
don't assume that we don't know and aren't doing it, and 
particularly those people who are coming around, this is one of 
the focuses of the border.
    We are seeing more people than they think. What to do about 
it is another challenge. One of our problems here is if your 
only penalty is you get arrested and get to go back and try six 
more times during the week, we have to look at long-term 
immigration policy here, because that is not a penalty.
    And let me make one other reference that other people 
alluded to. We have real problems. And, let's--while I agree 
that a lot of dollars, I am not sure it is the majority of 
dollars are narcotics related, a lot of dollars are narcotics 
related. It tends to come in a few shipments. Not to say that 
the majority of the commercial traffic is not legal traffic 
that is doing business, but that commerce is in fact important 
and likely to increase in importance, particularly as we expand 
the trade agreements, and trying to work through how we deal 
with this is not going to be easy.
    It requires better targeting of high risk, and not only in 
narcotics, but of the groups that are running these large scale 
immigrant groups. And I wanted to relate one of those to the 
terrorist questions, and the degree of the ability to zero in 
on the highest risk target is really going to be our primary 
way of focusing. And yet to do that will require information 
that requires then execution.
    You raised the question of INS, if they are reported, 
doesn't deport. What is clear in the United States is we are 
not going to implement a huge policy with it. What we have to 
do is have a higher degree of uncertainty. The fact is 
President Bush has backed off of this. We are all trying to 
figure out how to deal with this. But much of our economy in 
the United States would not be running. We probably have had 
unrealistically low numbers of legal immigration. And we are 
going to have to figure out how to address it so they don't run 
through your link. There has to be a way to accommodate 
realistic numbers somehow. Inside that we would shut down the 
economy of the United States right now if we did that. We can't 
afford as taxpayers to pay for it throughout the system. It is 
overwhelming.
    But there are some things----
    Ms. Tisdale. We are already paying for it.
    Mr. Souder. I understand what you are saying. I understand 
this is a difficult question in California. But I am trying to 
explain to some why it hasn't occurred. Some of the frustration 
of people, how come these policies haven't changed? Well, the 
dynamics of why they aren't changing are getting more 
difficult, that as more people move into the United States, 
more people are active from a multitude of countries, it is 
getting harder, not easier, and so we have to be realistic how 
we approach it.
    And some of the first tests coming from September 11th are 
important. And on the Education Committee what we found is not 
only don't we track illegal immigrants, we didn't track people 
who are coming in from terrorist, militant nations. If students 
have knowledge--when we were doing our oversight on this 
committee on the Clinton administration, and following some of 
the Asian money, and Johnnie Chung from this region of the 
country was in front of our committee, and I was asking him 
some questions both in public and private and not sure how many 
were on the record and how many of them were off, but he had 
employed the son of General Chang, who transferred a lot of 
money into the Clinton administration, who was the head of the 
CIA there.
    Now, quite frankly, I think it was 50/50. His wife wanted 
to be socially active. His son was a party person, in the sense 
he went UCLA and liked to party. But the truth was Johnnie 
Chung lost him, and all of our agencies lost him. We had the 
son of the head of the CIA of China and did not know where he 
was. When George Bush was head of the CIA, George W, if he had 
been in China I bet they wouldn't have lost him.
    We have to figure out how, when there is a high risk--at 
the very least Congress is already moving forward on the 
student visa program, because we found that the universities 
weren't following through. Then the Universities weren't when 
they sent it in. INS wasn't following through. We are going to 
start with the terrorist list. Then we are going to start with 
countries that are havens for terrorism. We are going to start 
with other high risks, and we are going to try to do a better 
job with that.
    I am trying to--realistically this is going to be a phase-
in program, because to try to do the border and the enforcement 
and internally is difficult.
    Ms. Tisdale. I live with this every day. I understand what 
you are saying.
    Mr. Souder. We hopefully will make more progress than you 
have seen since September 11th, and partly coming forward and 
making statements like you did today will help us.
    I yield to Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    Listening with great interest to the moral difficulties of 
the Republicans as they grapple with threat issues, I feel for 
you. And I wanted to thank this panel. Mr. Chairman, I look at 
the folks in front of you. They represent--and I don't agree 
with all of their ideas, but these folks have worked with the 
Border Patrol and worked with our agents to produce the results 
that the previous panel reported; that is, there is a defined 
border. There is a sense that there is a border there and there 
wasn't 10 years ago. And those folks have accomplished that. 
And I think that we have to--and the Congressman who isn't here 
today, Congressman Hunter, be given a lot of credit for that.
    And if you go to the border you will see--you don't see the 
soccer field, where literally thousands of people were 
congregating just to come across anymore. And I thank Mr. 
Hedgecock for being here. I know your meter is expired. So I 
hope you didn't get a ticket here. I think Jimmy Valentine is 
here for you.
    Mr. Hedgecock. So am I.
    Mr. Filner. I will pass up the incredible opportunity I had 
here of being up in front of this talk show host controlling 
his mike, and interrupting him. No, I will resist that 
temptation.
    You know, I have--and Dianne, Supervisor Jacob, thank you 
so much for your recommendation. I think they are all right on. 
The money has been put in the budget, by the way, the homeland 
security budget to accomplish much of what you want. Me, and I 
hope Mr. Souder will join me, have to fight for the allocation 
that will come to the Southern border and to this area.
    So there is money in the budget. I mean what we did in the 
last few months I think you will agree with me, and the amount 
of money that we have appropriated, I mean tens of billions of 
dollars have been voted on like that in the last couple of 
months. So the money is there. We just have to fight to make 
sure that they are allocated.
    As I listened just--I will just be very brief, Mr. 
Chairman. I listened to all of the things that Murial has done 
over the years and the creativity and life that Ms. Tisdale has 
to lead and the place around here, and Roger and Dianne have 
been involved with so often. It seems to me there is an 
enormous waste of political and economic energy here in these 
issues.
    That is if, for example, and as you know we have a new 
President of Mexico. He in his inaugural speech said, if I can 
produce a million and a half jobs in Mexico every year, you 
would not have the immigration problems that you are 
experiencing.
    That is, we are fighting them and fighting this and fences 
and technology and hundreds of millions of dollars and you guys 
lives are all caught up in this. If we didn't have to deal with 
this issue because people don't want to leave their own 
country, we have the historical geographical interesting point, 
I think it is the only place in the world where a first and a 
Third World nation have such a long border together.
    But if that developing nation was developing in a way that 
people saw a future for themselves, they don't want to cross 
the border to find opportunity. That is what they are doing.
    And I just think, Mr. Chairman, and I would just like the 
reaction of Mr. Hedgecock and others, If we devoted some energy 
to helping Mexico develop their economy in a way that would 
produce the jobs that would stop the immigration, it would seem 
to me that is a lot not only better, it is a lot cheaper too. 
But the money to help in foreign aid, for example, in ways--I 
think we wouldn't have the problems at the border that you all 
are dealing with and expending enormous capital on.
    Anybody want to respond to that?
    Ms. Jacob. Congressman Filner, that is a long-term solution 
that is going to take time. I think certainly very important, 
but at the same time we must not forget that the Federal 
Government has a responsibility to secure our borders. And 
while you are addressing a very important issue of those coming 
from Mexico trying to seek work to better their life, I mean 
that is their main goal. That is not going to stop a terrorist 
or terrorists from entering into this country through our 
borders.
    And that is why I think the first priority has to be 
securing the border, as Mr. Hedgecock said earlier. Two weeks 
after September 11th, our border was secure. We know it can be 
done. My question to you, is there the will to do it on a 
consistent basis?
    Mr. Filner. I appreciate that. I think you are absolutely 
right. There is a long-term and a short-term thing. And I would 
like, though, some of us to spend some time on the long-term 
thing, otherwise there will never be a long-term solution.
    Ms. Watson. Mr. Filner, how long term does it have to be? I 
started my advocacy for the Border Patrol mission in 1971. 
Nothing, absolutely nothing has improved categorically from 
those 30 years? We just----
    Mr. Filner. You were nodding your head when I said, and I 
gave you a lot of credit for it, for the fact that the border 
was defined and that we have 10 or 20 or 50 times the number of 
border patrols that we had 30 years ago.
    Ms. Watson. Yes. My husband had 295 agents for the same 
place where there is now 2,200 agents.
    Mr. Filner. So to say nothing has been done is not 
accurate. Maybe not enough is done. But we have got to find a 
balance here.
    Ms. Watson. But we should have had 2,200 agents in 1980 and 
1990.
    Mr. Filner. Well, now we do.
    Ms. Watson. But in the meantime we have absorbed all of the 
expense, and all of the illegal flow that has happened in those 
20 years.
    Mr. Filner. I understand. I am not telling you to go give 
up your efforts.
    Ms. Watson. But when you say--when you have to look at the 
long term, we tried to get Congress to look at the long term in 
1971. I testified before the Rodino subcommittee begging them.
    Mr. Filner. By the way, Mr. Souder being here is very 
important because, you know, Washington does not understand our 
issues here. And the county, the Border Counties Commission, we 
have an equivalent of border caucus in the Congress. You know, 
there is 15 of us Congress people who represent the Southern 
border areas. That is not a lot relative to--there is 420 who 
don't, who come from Indiana and elsewhere, that we are trying 
to educate. So it is a very difficult situation when you have 
so few people understanding the situation. It is the most 
frustrating thing that I have had in Congress in the last 10 
years.
    Mr. Hedgecock has been so silent.
    Mr. Hedgecock. I wanted to respond first of all in agreeing 
with you that the wonderful people of Mexico and the wonderful 
nation that they have, so full of natural resources, could 
obviously be a place in which the social and political 
institutions would allow a prosperity that might even exceed 
ours. If Singapore, with no natural resources, can do what they 
have done, as opposed to many of the other cities of the world, 
Hong Kong can do what they have done, without any natural 
resources, surely the Republic of Mexico could become a place 
where Americans would go to work because of the opportunities.
    The sole reason that does not happen is they have not 
embraced capitalism and democracy. Were they to do so, were 
they to fully embrace a free market and free peoples, I am sure 
with the industry that they show individually, that those would 
be a people who would be an economic powerhouse in our world.
    They are not for reasons internal to their political and 
cultural makeup, and I am sorry about that. But, in the 
meantime, I don't believe that the government of Mexico then 
has this right to use us as a safety valve for the younger 
generation with no opportunity to then come here. And maybe, 
Mr. Chairman, we have become dependent on, in my sectors, this 
source of labor for a variety of reasons internal to our 
culture, and that may be something you will have to wrestle 
with, is what is legal and what is illegal.
    All I am telling you is by the current scheme of making 
most of these immigrants illegal, we have created a 
subterranean way for terrorists to come in to the most secret 
of our institutions, threaten our sovereignty and our very 
physical presence, particularly here in San Diego. It is time 
we got this out in the open.
    Mr. Souder. Thank you. Furthermore, and there is going to 
be increasingly seen in the different terrorist organizations 
around the world, they are going to interconnect in their 
funding, predominately through narcotics and trafficking of 
children and illegal trafficking. As we see that nexus around 
the world, we are going to see more awareness of having to 
address these questions. And I just wanted to make sure the 
record reflects that the problem even here in your property, 
illegals coming through your property and across the San Diego 
border, is not just Mexico. It is Central America and down to 
Ecuador. A large percentage of the groups--I know a number of 
years ago when I was here and when I went out--when they were 
playing the soccer, and the Frisbees at one in the morning 
before the big rush, and it was an extraordinary thing to see, 
but that many of them in fact brought packages from way further 
south, that we have had unfortunately a couple of hurricanes in 
here. But the encouraging thing is in some of the Central 
American governments it is incredible to go down there and meet 
some of the new capitalists coming in. It is not impossible in 
our hemisphere with the President looking more south that even 
long established economies that have not had as much capitalism 
are not going to start to move in that direction.
    That too, so people, just like people in the Midwest may 
not understand all of the problems that you face here, on the 
pressures on your hospitals, on your schools, your roads, the 
entire system, it is not--I cast probably one of the most 
significant difficult votes I have on Fast Track, because Dana 
Corporation in my district just agreed to a 25 percent wage cut 
or they were going to transfer to Mexico. They have already 
transferred thousands of jobs from Dana alone to Mexico along 
the border here, which may help the economy here. It doesn't 
help the economy a whole lot in my area.
    I went for a period of 3 years with never less than 2 weeks 
without a company announcing that they were moving to Mexico. 
We basically lost much of what we were going to lose. Now we 
have to figure out how to do the trade. We are picking up with 
Canada. Those questions are not easy, how to rebuild the 
economy. That means they are trading with us, and we are having 
some transference of jobs on where they are going to be 
located.
    We have to look at these very difficult questions, and one 
of the good side points that came out of the terrible tragedy 
on September 11th is we are having to face them, and the 
American people are more interested in listening to us try to 
struggle throughout, because they sense that they may be at 
risk.
    And so I appreciate your testimony today, from each of you. 
If you have further things, we will probably have some 
additional questions.
    Ms. Watson. Can I just add that over the last 20 years, 
Border Patrol agents have been shot, killed on duty, and yet 
day after day, night after night they still go out there in 
that dark foreboding land and patrol. And if we are talking 
about unsung heroes, I would say at this point in time the 
country needs to recognize that these men and women are 
actually unsung heroes trying to secure their country.
    Mr. Souder. Thank you very much for your time.
    Will the third panel come forward? There are two changes on 
this. Ms. Teresa Montano, Ms. Bertha Gonzalez. Mr. Steve Otto, 
who I should have mentioned in the initial--who I neglected to 
mention--from the San Ysidro Business Association, and Mrs. 
Viviana Ibanez.
    Mr. Souder. I forgot to swear the last panel in, so I will 
have to make a written note. So when we start here I am going 
to swear you in. For the record most committees don't do it. 
Because we are Government Reform and Oversight. We are now part 
of the committee that did the China investigation, the White 
House Travel Office, the FBI files, Waco.
    But because a lot of what we do, like on the Peruvian 
shoot-down, where the plane was shot down, when we take that, 
we swear the witnesses in, because it is needed in documenting 
our record.
    So it is nothing that really deals with you; it deals with 
the committee. But we appreciate you coming today. I think I 
will swear the three of you in and then we will get started.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
answered in the affirmative.

    STATEMENTS OF TERESA MONTANO, HUMAN RESOURCES MANAGER, 
 SOUTHWEST MARINE, UNITED STATES AND NORTH SAN DIEGO DIVISION, 
 ON BEHALF OF U.S. MARINE REPAIR WEST; BERTA ALICIA GONZALEZ, 
VICE PRESIDENT, SAN YSIDRO CHAMBER OF COMMERCE; VIVIANA IBANEZ, 
    INTERNATIONAL AFFAIRS COORDINATOR, SAN DIEGO CHAMBER OF 
   COMMERCE; AND STEVE OTTO, EXECUTIVE DIRECTOR, SAN YSIDRO 
                      BUSINESS ASSOCIATION

    Mr. Souder. Ms. Montano, would you start?
    Ms. Montano. Sure. Distinguished committee members and 
Congressman Filner, it is my privilege to be here representing 
U.S. Marine Repair and our president, Monte Dickinson, who is 
on travel and regrets he could not be here.
    U.S. Marine is America's largest non-nuclear ship repair 
and modernization conversion company. My name is Terri Montano, 
and I am Human Resources Manager for Southwest Marine, United 
States and North San Diego Division. Approximately 300 of our 
employees live across the border in Mexico and commute to work 
daily.
    While it has always been a challenge to come across the 
border and arrive at work on time, the situation became almost 
impossible after September 11th. In the days following the 
attacks Susana Samaniego, one of my staff members, waited up to 
8 hours to cross the border. She finally purchased a bike 
parked south of the border and peddled through the border 
crossing. This greatly improved her travel time. Several other 
Southwest Marine employees did the same, some borrowing their 
kids' bicycles. While everyone understood the reason for the 
delays, many feared for their jobs. In the months that have 
followed the travel situation at the border has improved.
    Prior to September 11th there were only two lanes crossing 
into the United States open before 5 a.m. This made it very 
difficult to arrive at work by 6 a.m., the starting time for 
our production employees. Many of our employees who lived in 
Tijuana and the bordering towns had to leave their homes as 
early as 3 a.m. in order to arrive at work at 6 and 7 a.m. 
Their average wait time was between 45 minutes and 1 hour and a 
half.
    Beginning this year there are now 14 lanes open before 5 
a.m. Now the crossing times are a more reasonable 20 minutes.
    Ysidro Gutierrez, a shipfitter in our Structural 
Department, is very happy about the change. She said that the 
fact that they have opened all 14 lanes is great. I hope they 
keep it that way.
    We at Southwest Marine recognize the critical importance of 
our country's security, especially in these times. We are in 
the business of helping the government ensure security of our 
citizens by enhancing the readiness of the Navy's fleet of 
ships.
    The border checks are critical to ensure our safety and 
stop the flow of drugs into this country. At the same time it 
is important to our economy to ease travel for those taxpaying 
individuals who enter the country legally for their livelihood.
    The answer is not minimizing the scrutiny and security 
checks that individuals are subjected to when they cross the 
border. The answer, in our opinion, is continuing and possibly 
intensifying the current practice of manning the border 
appropriately at peak commute times.
    Thank you for your attention and for inviting me to speak 
on behalf of Mr. Dickinson and our employees.
    [The prepared statement of Ms. Montano follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.034
    
    Mr. Souder. Thank you for coming.
    Ms. Gonzalez.
    Ms. Gonzalez. My name is Berta Alicia Gonzalez. I am the 
vice president of the San Ysidro Chamber of Commerce in San 
Ysidro. I live in San Ysidro, and I have been in business for 
the last 42 years. My business is located about 500 feet away 
from the border, so I am very involved in the community. I am 
an advocate of businesses there and health, education, etc.
    And the last--after September 11th, our business community 
was almost stopped. Nothing happened. It was very sad at that 
time to see my peers and I and everybody wondering, because we 
don't know, we were very sad, very sorry for what happened. At 
the same time we have no business to cover the expenses. I am 
talking about small businesses. So we reach out and call our 
Congressman, Mr. Filner, and he help us. He has helped us, and 
is helping us very, very much. The least he did is encourage us 
to continue to give us the strength to continue in our 
business.
    We have formed together with San Ysidro Business 
Association. We have several hearings, and we are requesting 
from the Federal Government, from the President, to have--I 
always forget that word--to have a state of economic emergency 
for the businesses.
    But we are not only asking for the business to be helped, 
but we like to have more security at the border and have 
support moneywise so we would have more agents in the 
immigration and customs in San Ysidro, but border--well, it 
doesn't matter--and to increase the crossing of the border.
    You people there cannot recite--other people to live in San 
Ysidro cannot experience what we did. We are there with this 
day-to-day and we did experience that. Now, we are happy to see 
more cars in the street. And also, due to the fact that it was 
problems by crossing the border, I think that we have 24,000 
bikes in our border. Also, we are requesting the use of the 
crossing with the Century, that card allows you to cross faster 
into the United States.
    United States; San Ysidro, San Diego and Tijuana we are a 
region. I have relatives in Tijuana. My relatives come to visit 
me. And if you talk to nobody of Spanish descendants, we have 
that situation. They don't come only to visit us, they come to 
shop and we depend on the shoppers in San Ysidro and Tijuana to 
have our business. They shop at small stores like ours, but 
they also shop in bigger stores. They are neighbors and they 
use--we share cultural events, industrial, health, education, 
scientific. We have meetings constantly with these people that 
meet to exchange information.
    Also we have the police. Different authorities meet 
together to solve the problems of traffic, drug traffic and 
other things. We are here today to let you know that we need 
your support when Mr. Filner goes to you in a presentation of 
San Diego. And please listen to him and you are listening to 
the people and this panel represents in this area. As more 
people--we are not--we don't have enough money, we have small 
businesses to make a living, not that to become rich, and it is 
the way we work.
    I have five children and all of my children are 
professionals, thanks to my small business. And that is my 
will, to have my family educated, my neighbors educated, to 
have more business, to have more integrated in society, Tijuana 
as well as San Ysidro, and we expect to have more security, and 
that transforms into money. Important in that respect. Thank 
you.
    Mr. Souder. Thank you very much.
    Ms. Ibanez.
    Ms. Ibanez. Good morning, Chairman Souder, Congressman 
Filner. My name is Viviana Ibanez, and I represent the San 
Diego Regional Chamber of Commerce. However, my comments this 
morning also represent those of the Altadena Chamber of 
Commerce.
    Since the September 11th attacks our ports of entry have 
been on a heightened security alert. Heightened security during 
this time is necessary. However, because of long years of 
inadequate resources our ports of entry, these security 
measures have caused excessive delays at our borders, affecting 
our local businesses as well as those of Baja, California.
    Residents of Baja, California are not crossing the border 
as often as they did in the past because of the long waits. 
Border waits were already at an all time high prior to the 
attacks, as lines of up to 180 vehicles and one and a half hour 
waits to cross the border were common.
    We understand the current situation demands greater 
security af our ports of entry, but we are also aware of the 
tremendous impact the security is having on our businesses. In 
some areas the lack of Mexican shoppers has cost a decrease in 
store sales of up to 80 percent.
    The majority of border crossings, slightly less than 70 
percent, are by foreign nationals, most of whom are Mexican 
citizens. Border crossings total nearly 60 million annually. 
Stores in the south region of San Diego often have a bigger 
ratio of customers from Mexico. In total, sales to Mexican 
citizens represent $3 billion in retail sales for San Diego 
businesses, reflecting our inextricably linked economy.
    The San Ysidro port of entry has 24 inspection gates for 
vehicles going northbound from Tijuana to California with an 
average of 16 to 17 gates open on a daily basis. According to 
the Immigration and Naturalization Service, one of the main 
reasons for these long lines is the lack of personnel. Recent 
studies showed that at least 100 officers are needed at the 
Otay Mesa and San Ysidro ports of entry to keep up with the 
demand of the growing and active region of Tijuana-San Diego.
    With a population of almost five million people the, San 
Diego-Baja, California region constitutes the single largest 
urban area along the U.S.-Mexico border. If all 24 gates were 
functioning we would be able to maintain our security while 
expediting traffic and moving legitimate business people into 
and out of the country. Additional agents are required to fully 
staff the border and to carry out additional security 
activities.
    The local offices of INS have been very successful in 
implementing the Century Program, also known as Dedicated 
Commuter Link. Applicants to the Century Program go through an 
extensive background check and are easily identified residents 
of the region. Pre-clearing these individuals liberates human 
and infrastructure resources of the ports of entry that can be 
better employed to focus law enforcement procedures on 
nonfrequent users who are higher security risks.
    Expanding the Dedicated Commuter Link Program is one of the 
best and most effective investments the government can make for 
improving security at the border. Individuals who register for 
the Century Program in San Diego are fingerprinted and undergo 
rigorous background checks. They are known and easily 
identifiable residents of the border area with family jobs and 
economic interests in the region.
    We are certain that the purchase and implementation of 
technologically advanced equipment will assist in inspections 
so that time consuming and labor intensive searches can be 
minimized, at the same time that we have greater control of who 
enters the United States.
    The importance of our southerly routes cannot be 
underestimated. We need to act and we need to do it quickly 
before our small business are affected in a deeper way. We ask 
that you please help us advocate for the appropriation of 
funding increases for additional inspectors at the world's 
busiest port of entry, the San Diego-Tijuana region.
    Thank you very much.
    [The prepared statement of Ms. Ibanez follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.035
    
    [GRAPHIC] [TIFF OMITTED] 82954.036
    
    Mr. Souder. Thank you. Mr. Otto. We gave the oath so if you 
can stand up.
    [witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative. So the second panel I forgot, so we have to 
have them fill out forms that in fact what they said was 
factual.
    Thank you for coming, and we will hear your testimony.
    Mr. Otto. Good morning, Mr. Chairman and Congressman 
Filner. My name is Steve Otto. I am the Executive Director of 
the San Ysidro Business Association. We are the Business 
Improvement District designated by the city of San Diego. I am 
here this morning representing our more than 500 business 
members. These are mostly small businesses.
    As I begin my remarks, I am sorry to note that this most 
important congressional field hearing is not being conducted at 
the border itself, which is only 15 miles away.
    Better yet, if all of you could observe, for example, from 
the air, what we in San Ysidro experience every day, located as 
we are at the busiest land border crossing in the world, you 
would see immediately how the border serves a region with over 
a million people on either side of the border, San Ysidro being 
located within a very narrow funnel right in the middle.
    The importance of an efficient border crossing process 
cannot be overstressed, as cross-border traffic contributes at 
least $3 billion annually to the local San Diego economy. And 
this does not take in to account the large number of persons 
who reside in Tijuana who enter the United States legally every 
day to work all around San Diego County; the cooks at Denny's 
Restaurant, the maids in La Jolla, the landscapers working in 
Del Mar, etc.
    As vital as the international port of entry is to all of 
San Diego, it is the single most important factor driving the 
economy of San Ysidro, with an estimated 60 percent, at least, 
of all of our business generated by consumers legally crossing 
from Mexico. This was an economic fact of life before September 
11th, when the quite necessary additional security measures 
were taken.
    The result, however, has been and continues to be 
unacceptably long waits both for vehicles and pedestrians. In 
several surveys taken from our membership after the September 
11th disaster, business was off typically from 30 to 60 percent 
and has begun to recover only recently, a situation of such 
economic consequence that the city of San Diego in December 
declared its border communities as in a state of economic 
emergency. This declaration was communicated to both President 
Bush and Governor Davis.
    Quite simply put, how long can it be expected that a 
Mexican consumer, legally entering the United States, will wait 
in line to cross over the border to buy shoes in San Ysidro? 
Certainly no more than 30 minutes waiting in their car, or 20 
minutes waiting in line to cross on foot.
    And here it must be mentioned again, that the border is a 
two-way connector within a single region, every bit as 
important for Baja, California to attract visitors from our 
country. We need to be mindful of the negative impact that long 
border waits have in quashing southbound border crossings.
    Why go to all of the trouble to drive down first from 
Oceanside to cross the border, and stopping first in San Ysidro 
to buy Mexican insurance, when you have to wait so long to come 
back?
    In terms of recommendations on the efficient flow of 
commerce, travel and tourism, the San Ysidro Business 
Association calls on the Federal Government, one, to increase 
the numbers of border inspection personnel, both INS and 
Customs, such that all 24 vehicular and 8 pedestrian inspection 
booths are open at all times. Now, invariably, as was 
mentioned, three or four both vehicle and pedestrian posts are 
not opened all of the time, and that is further increasing the 
wait time.
    I would mention that from an economic point of view a very 
good return on investment. I have heard--the word has been a 
hundred additional inspectors would cost something like $6 
million. With a $3 billion contribution to the San Diego 
economy, that is a very good return on investment. I realize 
several jurisdictions are involved, though.
    Second, to develop and put in place improved technologies 
that will allow inspectors to quickly access all appropriate 
data bases, and further to develop a computerized 
identification system for pedestrians, not just for people 
crossing in vehicles, but for pedestrians, in a manner similar 
to the current Century system.
    Thank you for your attention.
    [The prepared statement of Mr. Otto follows:]
    [GRAPHIC] [TIFF OMITTED] 82954.037
    
    [GRAPHIC] [TIFF OMITTED] 82954.038
    
    Mr. Souder. Thank you very much.
    Let me first state that for a variety of reasons we--but we 
attempted to have the hearing at the border. There were several 
things that impeded that; namely, we had to try to have them at 
a public facility and we were told that there was not one large 
enough. We also at the last minute, due to me, switched from 
Nogales to here, which meant that we didn't have as much 
timeframe. But we generally have them on the border, and we 
attempted to do this in San Ysidro.
    The one reason it wasn't quite as urgent in some ways is 
because I and our committee staff have been at San Ysidro and 
along the California border several times, and obviously Mr. 
Filner has, too. But I think--I wanted to make sure that the 
record shows that we generally try to do that, and I appreciate 
the importance of that.
    One of the questions we were kind of talking about on the 
last panel indirectly, but I would like to hear from your 
business groups, do you meet with your counterparts on the 
Mexican side of the border, one? Do you raise to them about how 
they are adjusting to September 11th in the sense of security?
    Are they doing more pre-screening? Are they willing to help 
more closely with us in law enforcement? Are they willing to 
put political pressure on their side as well, because we have 
had problems in this zone before? Because it is truly mutually 
beneficial, and I wonder whether you have had discussions, what 
their reactions have been since September 11th.
    Ms. Ibanez. Yes, we do have, and we talk to the people in 
Tijuana, and they are working as hard as we are. They are being 
very selective. In fact, they have at the border some police, I 
would say policemen, they are officers, when we cross from 
Tijuana into the United States. They are also--the Chambers of 
Commerce in Tijuana is working very diligently not only Tijuana 
but also Rosarito, Ensenada, Tecate, Mexicali. They are working 
together to have a very much improvement in the relationship 
with the United States. They are working very diligently in 
that respect, and they have improved--and I think that security 
is more of--you can see it, the difference.
    I don't know if I make sense. They are helping.
    Mr. Souder. I understand what you are saying. You are 
seeing increasing recognition on their side of the border as 
well, because to the degree that there is a higher degree of 
confidence in--it is not their job to do our work, but, and I 
think it is important for us to recognize that the amount of 
dollars, particularly in the narcotics trade, but also quite 
frankly right now you can see at San Ysidro pharmacies lined up 
on both sides, and the prescriptions coming across too for 
American citizens. I don't want to underestimate the illegal 
dollars that move through, because they are huge.
    But the number of people who are dependent on those illegal 
dollars are few. Those dollars can occasionally buy favors here 
and there, but most of the people have a legitimate business 
for them, and that they need to work with us to keep pressure 
on the Mexican side of the border, because the degree that 
there is the confidence that is less stuff coming across, there 
won't need to be the same type of pressures. We are having the 
same pressure--I was up in Ottawa meeting with the Canadian 
officials, because the degree that they do a better job of 
screening, prescreening and control the border as well, it 
works both directions. And the business community is the most 
likely to have the connections back and forth across the 
border.
    And your employees that move across daily, who choose to 
live in Mexico come and work, to the degree that they can speak 
to their officials, look, this can't all be the Americans doing 
all of this or we will tie up the borders and everybody's 
business will go down.
    Ms. Ibanez. I would like to comment on that question as 
well. As far as San Diego Chamber of Commerce goes, we have--
actually it was only yesterday night that we came back from a 
trip to Washington, DC, precisely to advocate members of the 
Appropriations Committee for INS and U.S. Customs.
    Prior to the trip, this trip had representation from the 
city of San Diego, from County Board of Supervisors, as well as 
several companies, private companies here in San Diego, such as 
Qualcom, Gateway, etc. But we extended invitations to the 
Governor of Baja, California, as well as the mayors of the five 
municipalities. Unfortunately, because of their budget process, 
etc., they were not able to join us. However, they said, if you 
need to mention our names, that we support you, that we are 
fully behind you on this, please do so, because they are aware 
of how it is not only affecting us but them as well.
    I mean, San Diego and Tijuana are so interdependent on each 
other that when something happens to one city it immediately 
affects the other one, whether it is social, economic or 
whatever.
    And also one of our meetings in Washington, DC, was with 
the Mexican ambassador to the United States. Same thing. He has 
had conversations with President Fox about the issue and they 
are concerned in looking at the best ways to improve it.
    So the answer to all of your questions is yes at all 
levels, being State, local and Federal.
    Mr. Souder. And one of the things that I strongly encourage 
you to raise directly with them is the pay levels of their law 
enforcement, that we are--you heard us talking about we know 
that we have to do it on our side, that is going to take up a 
certain amount of dollars out of the $11 billion in the border 
issue, in trying to do that as well as hire new agents.
    But their law enforcement agents are paid so little, not 
only in Mexico but elsewhere, that the potential and confidence 
that we have in the corruption is difficult. I mean, it is--if 
you can't feed your family, you are going to look for other 
ways to do it. This is not Mexico, but in Guatemala the 
policemen have to pay their own gas and their own bullets, and 
they basically hide out. They take 60 percent of their gas 
allotment to get to the gas station, fill up, then they come 
back and they hide out. The good thing is they don't shoot a 
lot of people unnecessarily because they have to buy the 
bullets.
    But it shows how poorly funded a lot of the law enforcement 
is, and the business community needs to see that if there is a 
squeezing of the revenues side because we don't have 
confidence, that there is a direct relationship to paying out 
in the area of law enforcement.
    You are our best group to make that point, because you deal 
with them on a daily basis.
    Ms. Ibanez. Yes, and we are aware of the fact that the 
lower the wage is, probably the more tempted, you know, that 
they are to do these things. However, we are also in 
partnership with them. We have--on a program of housing for 
police officers. The Chamber has a Housing Committee among many 
others. But that is one of the issues that we are working on 
with them.
    Mr. Souder. And we historically, and we need to look at 
creative ways to train and give assistance across the board. It 
is not that we are unwilling to help in their law enforcement 
areas like we do in other countries.
    Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    The question you raised, by the way, is extremely important 
about Mexican cooperation, and many of us have been working--
trying to work with our counterparts. As you know, the 
President of Mexico in his discussions with President Bush has 
indicated a new willingness to be involved in those issues. We 
here locally meet with the Governor of Baja, California, and 
mayors of the various cities and deputies who are our 
counterparts, and that is improving every day. And I think 
there is a recognition of just this issue that you raised.
    I want to thank these folks again for coming to the panel. 
They are struggling every day with their business needs. You 
see before you, Mr. Chairman, the two panels. There is a 
schizophrenia in this region, the way the border is used, and 
therefore the first panel is not clear which way to go.
    This is not just a resource question, but a political 
question in the broadest sense; that is, if the border becomes 
too convenient then the last panel comes in and has their 
demonstrations. Then it becomes too difficult, then these folks 
come in, and the Customs and INS are not sure which way to go. 
So until there is a real consensus, which of course political 
leaders, business leaders, community people are involved in, we 
need to have the sense that the border does have problems, 
which we need to recognize. And terrorism is one, but the 
opportunities for improvement are vast, and we have to work on 
those, too. That is the balance that we are creating.
    And you see here--I mean, I think some of the employees 
that were mentioned are not just Mexican citizens who are 
legally working here, they are U.S. citizens who for one reason 
or another choose to live on the other side of the border. So 
we are talking about a truly binational community. And these 
folks represent the business areas. The families would testify 
the same way. The families on both sides of the border, 
cultural relationships, educational ties.
    So I have tried to advocate on behalf of these folks the 
resources that are needed, and I think in the homeland security 
budget those resources have been provided. The question is how 
they are allocated, north, south, across the border, and I have 
been fighting to get the positions we need here.
    Again, thank you very much for being here. I think the 
testimony you provided gives us education in Washington about 
the needs. They recognize that security has to come first. They 
recognize they don't want terrorists here, but they need to 
conduct their business. They need to carry out--and their 
business is the business of America.
    I mean what Southwest Marine is doing, as was stated, is 
for the security of the United States in their ship work. And 
the small businesses are the fabric of our American economy, as 
you would, I think, agree with me. So they are fighting for 
America in their daily work, and we need to help.
    Thank you, Mr. Chairman. Thank you again for coming here. 
It is really--people here really appreciate it, being here 
today.
    Mr. Souder. Thank you. I wanted to ask a couple of ones, 
followup on the--I can't remember, and I apologize, who said 
that. I think maybe it was you, Ms. Gonzalez, that you could 
live with 20 minutes, or maybe Mr. Otto, that there are--how 
long will people wait in a car? Obviously you would like no 
wait. The question is, where are realistic targets here?
    Mr. Otto. For the discretionary shopper, I think that was 
the issue. But the people crossing daily to work or to visit 
family is one thing, but the discretionary shopper, and rightly 
or wrongly our community is totally dependent, very 
overwhelmingly dependent on that business from Mexico.
    So I think I might wait in line 15 minutes to buy shoes. 
But, gee, that time is money, as we say. I could--for an extra 
$2, I could get the shoes somewhere else, in Tijuana as well. 
So that is an issue.
    Mr. Souder. Where I have some disagreement, but it will--it 
is not a disagreement that--let me state a couple of quick 
presumptions. Terrorism is not going to disappear, in fact it 
is actually going to increase. They may not be as successful in 
a dramatic way on our soil, but we have been getting hit every 
6 months somewhere in the world. Different groups now see that 
they can succeed more. It is unclear whether the will of the 
American people or Congress, we kind of go in phases, we run to 
this issue, we run to that issue, depending on what the crisis 
is. But if we can sustain it, and indeed if the threat stays 
the same, that we may--I don't believe that we have enough 
money this year. That isn't a criticism of the President's 
budget or what we passed, because what we heard on the first 
panel is there is only so much we can absorb at a given time 
and not kind of--you have to have a logical ramp-up.
    Some people wanted equipment at airports, which didn't seem 
unreasonable, that for example could have caught the one guy in 
Chicago with seven knives. Well, it takes a certain kind of 
equipment because while they already had some of the best 
equipment, but hard plastic is a different substance again. You 
can't walk down to Wal-Mart and buy these machines. It takes a 
while. This $11 billion that we have isn't a matter of how much 
is going to go to San Ysidro versus the Canadian border, and so 
on, and quite frankly up there they haven't had some of the 
equipment. Now that they are having to enforce the border a 
little tougher, they are a little further behind.
    But to some degree these pieces of equipment, in addition 
to personnel, when you get the equipment, the intelligence 
screening behind it, we may not need as many new lanes if we 
can do as several of you suggested, different fast passes for 
pedestrian systems, for cars, for trucks. Now we are starting 
to go exponentially in the cost of equipment, the 
implementation of the intelligence system behind it, the cards, 
with--Border Patrol is important, Customs agents on the border 
are important. But a lot of this money is going to get burned 
up and utilized in the infrastructure system, because our goal 
is to try to make--trying to find where is that reasonable wait 
time with the heightened security levels, and knowing that in a 
criminal sense if we squeeze at San Ysidro, we squirt it out, 
and therefore where is a reasonable wait so we don't just chase 
the problem. That is really what our struggle is.
    Mr. Otto. Just to followup on this fast pass thing, part of 
my plan was to advocate that just as strongly for pedestrians. 
Earlier on you were talking about user fees, not that I am 
advocating--because I basically--I believe the Century system 
for vehicles is--it pays for itself. And it seems to me that 
forms a kind of a model, because people that have that fast 
pass Century they come right across driving in a very few 
minutes. That is rather efficient. We are talking about an 
efficient border crossing. So the technologies can work for us, 
and the users could offset the cost.
    Mr. Souder. And we agree. And we are--Mr. Filner earlier, 
jokingly I hoped, referred to me as an extremist. I want to 
show the record that I am a conservative. But whether he is 
more liberal, I am more conservative than he is, the fact is 
that both parties need to be working together to try to address 
these questions and working with the business community, with 
individual citizens, with workers, the degree that you can 
provide any additional testimony for this hearing record as we 
work toward our report, some specifics like you gave on the 
number of people who cross each day.
    For example, in Detroit they hammered us with 1,400--
between 12 and 1,600, but roughly 1,400 nurses a day cross to 
Detroit hospitals. When it went to 4 to 6 hours, all of a 
sudden hospitals weren't staffed. That--trying to figure out 
what is a workable time, and then to the degree that you can 
find other companies in your Chamber here that may have in San 
Diego and San Ysidro, in our communities, some specific 
examples like that that we can communicate the tradeoff, and 
then also in these times how it is different, because most of 
those people are going to cross at rush hour and not in 
between. People are working with scheduling patterns and trying 
to address that for even flow. We are probably not going to man 
every place 24 hours.
    The question is if we can get those lanes open at the peak 
times when people are crossing, and what is this actually going 
to cost us, and then over time as we move to better clearance 
systems, as we move to more equipment that can--ideally we will 
get something in the car. Literally when we were at Detroit 
just the other week, they caught a SUV going through with--the 
second one went through, the guy, same story, caught him with 
his whole sides were full. Hey, I think this guy ought to go to 
secondary. And his whole SUV was jammed with BC bud marijuana. 
Now that sells on the streets for as much as cocaine because of 
its kick. This is just marijuana. This stuff sells for higher 
than cocaine because of the THC component, and it is wiping out 
people in towns. And his vehicle was loaded with it. To look at 
it, it was a rental, you would have never thought to pull it 
over.
    To the degree we get better scanners, it won't take as long 
because you just go on through if you have the passes too, if 
the authorities on both sides of the border can do that.
    The other thing, by the way, which I just want to have the 
record show, because we are going to have another hearing 
tomorrow up in Los Angeles, and we know when we squeeze the 
land border that they move along the ground farther east and 
depending how far down, they go even up through Eagle Pass, 
stories from ranchers where people were running through in the 
hundreds. But the water and boats can land anywhere on the 
coast or go to air. People think, well, LAX or San Diego. They 
go to these little airports. We haven't even begun to address 
how to deal with--like the kid in Tampa takes a plane and runs 
it into a building. We don't have any security process at those 
small airports. So this is a massive problem to the degree that 
at the largest land border we can use this as a model and show 
that you can indeed even use it in a large thing, mass border 
where you have the most people crossing.
    Detroit has this at most commercial crossings. If we can 
make them work in those places we ought to be able to make it 
work elsewhere. Your testimony is a help in that. My sympathy 
goes out. Our family has had a small business since 1970, and I 
know the struggles. I know when you get a hit, this is like our 
equivalent of a winter storm where you go down 80 percent. You 
don't have that much stored away with which to survive. So I 
appreciate working with Mr. Filner and the Border Caucus.
    Anything else you want to say?
    Thank you for coming today. Your testimony will be in the 
record. We will make sure that you get copies of that. Anything 
else you want to insert, it would be helpful for us to have 
talking points. We would appreciate that.
    With that, this hearing stands adjourned.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 82954.039

[GRAPHIC] [TIFF OMITTED] 82954.040

[GRAPHIC] [TIFF OMITTED] 82954.041

[GRAPHIC] [TIFF OMITTED] 82954.042

[GRAPHIC] [TIFF OMITTED] 82954.043

[GRAPHIC] [TIFF OMITTED] 82954.044

[GRAPHIC] [TIFF OMITTED] 82954.045

[GRAPHIC] [TIFF OMITTED] 82954.046

[GRAPHIC] [TIFF OMITTED] 82954.047

[GRAPHIC] [TIFF OMITTED] 82954.048

[GRAPHIC] [TIFF OMITTED] 82954.049

[GRAPHIC] [TIFF OMITTED] 82954.050

[GRAPHIC] [TIFF OMITTED] 82954.051

                                   - 

</pre></body></html>
